<html>
<title> - REMOVING INEFFICIENCIES IN THE NATION'S JOB TRAINING PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
     REMOVING INEFFICIENCIES IN THE NATION'S JOB TRAINING PROGRAMS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HIGHER EDUCATION
                         AND WORKFORCE TRAINING

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 11, 2011

                               __________

                           Serial No. 112-21

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
66-132                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f283f200f2c3a3c3b272a233f612c202261">[email&#160;protected]</a>  

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California            Lynn C. Woolsey, California
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Carolyn McCarthy, New York
Tim Walberg, Michigan                John F. Tierney, Massachusetts
Scott DesJarlais, Tennessee          Dennis J. Kucinich, Ohio
Richard L. Hanna, New York           David Wu, Oregon
Todd Rokita, Indiana                 Rush D. Holt, New Jersey
Larry Bucshon, Indiana               Susan A. Davis, California
Trey Gowdy, South Carolina           Raul M. Grijalva, Arizona
Lou Barletta, Pennsylvania           Timothy H. Bishop, New York
Kristi L. Noem, South Dakota         David Loebsack, Iowa
Martha Roby, Alabama                 Mazie K. Hirono, Hawaii
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania
[Vacant]

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

John Kline, Minnesota                Ruben Hinojosa, Texas
Thomas E. Petri, Wisconsin             Ranking Minority Member
Howard P. ``Buck'' McKeon,           John F. Tierney, Massachusetts
    California                       David Wu, Oregon
Judy Biggert, Illinois               Timothy H. Bishop, New York
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
David P. Roe, Tennessee              Susan A. Davis, California
Glenn Thompson, Pennsylvania         Raul M. Grijalva, Arizona
Richard L. Hanna, New York           David Loebsack, Iowa
Larry Bucshon, Indiana               George Miller, California
Lou Barletta, Pennsylvania
Joseph J. Heck, Nevada


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 11, 2011.....................................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training...........................     1
        Prepared statement of....................................     2
    Hinojosa, Hon. Ruben, ranking member, Subcommittee on Higher 
      Education and Workforce Training...........................    17
        Prepared statement of....................................    18
        Additional statements submitted for the record:
            The American Society for Clinical Pathology..........     3
            Conway, Maureen, executive director, Economic 
              Opportunities Program, the Aspen Institute.........     5
            Holzer, Harry J., professor of public policy, 
              Georgetown University; institute fellow, Urban 
              Institute..........................................     7
            Kuriansky, Joan, executive director, Wider 
              Opportunities for Women............................    10
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, submission for the record:
        Twomey, John, on behalf of the National Workforce 
          Association, prepared statement of.....................    13

Statement of Witnesses:
    Ganzglass, Evelyn, director, Workforce Development Center for 
      Law and Social Policy......................................    25
        Prepared statement of....................................    26
    Royal, Bert ``Van,'' owner/broker, Magnolia Point Realty, K&V 
      Investment Group, Inc., chairman, WorkSource...............    34
        Prepared statement of....................................    36
    Sherrill, Andrew, Director for Education, Workforce, and 
      Income Security, U.S. Government Accountability Office.....    19
        Prepared statement of....................................    21
    Temple, Larry, executive director, Texas Workforce Commission    21
        Prepared statement of....................................    23


                     REMOVING INEFFICIENCIES IN THE
                     NATION'S JOB TRAINING PROGRAMS

                              ----------                              


                        Wednesday, May 11, 2011

                     U.S. House of Representatives

        Subcommittee on Higher Education and Workforce Training

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:08 a.m., in 
room 2175, Rayburn House Office Building, Hon. Virginia Foxx 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Foxx, Petri, Platts, Thompson, 
Bucshon, Hinojosa, Tierney, and Bishop.
    Staff Present: Katherine Bathgate, Press Assistant/New 
Media Coordinator; James Bergeron, Director of Education and 
Human Services Policy; Casey Buboltz, Coalitions and Member 
Services Coordinator; Heather Couri, Deputy Director of 
Education and Human Services Policy; Jimmy Hopper, Legislative 
Assistant; Barrett Karr, Staff Director; Rosemary Lahasky, 
Professional Staff Member; Brian Melnyk, Legislative Assistant; 
Krisann Pearce, General Counsel; Alex Sollberger, 
Communications Director; Linda Stevens, Chief Clerk/Assistant 
to the General Counsel; Alissa Strawcutter, Deputy Clerk; 
Joseph Wheeler, Professional Staff Member; Aaron Albright, 
Minority Communications Director for Labor; Tylease Alli, 
Minority Hearing Clerk; Jody Calemine, Minority Staff Director; 
Celine McNicholas, Minority Labor Counsel; Megan O'Reilly, 
Minority General Counsel; Julie Peller, Minority Deputy Staff 
Director; Meredith Regine, Minority Labor Policy Associate; 
Laura Schifter, Minority Senior Education and Disability 
Advisor; and Michele, Varnhagen, Minority Chief Policy Advisor 
and Labor Policy Director.
    Chairwoman Foxx. Good morning. A quorum now being present, 
the subcommittee will come to order. Welcome to the 
Subcommittee on Higher Education and Workforce Training.
    I would like to thank our witnesses for joining us today. 
We look forward to your testimony.
    Today's hearing will review ways we can make federal job 
training programs more efficient and effective. Such programs 
are critical to fostering a competitive workforce and assisting 
unemployed citizens. However, serious concerns about program 
fragmentation and potential duplication exist that could result 
in significant waste.
    A recent Government Accountability Office report identified 
47 separate job training programs administered by 9 federal 
agencies. Of those 47 programs, the GAO found 44 overlap with 
at least one other program. Considering the $18 billion price 
tag attached to these programs, a comprehensive review to 
identify ways we can reduce costs, consolidate programs, and 
improve services is vital.
    In the coming months, Congress will take steps to 
reauthorize the Workforce Investment Act which was passed more 
than a decade ago to reform the nation's federal job training, 
unemployment, and adult education and vocational rehabilitation 
programs. WIA has helped integrate federal and State employment 
and training programs by requiring services be provided through 
a one-stop delivery system. However, as the GAO report 
illustrates, there are still areas where overlapping programs 
or services could be further consolidated and improved.
    A number of States have taken it upon themselves to 
streamline State workforce and welfare agencies that administer 
federally funded programs. For example, Utah established State 
Department of Workforce Services by merging 6 agencies that 
administered 23 employment and training programs. Texas 
consolidated 28 employment and training programs from 10 
separate agencies to create the Texas Workforce Commission. 
Additionally, Florida established the Agency for Workforce 
Innovation by merging State workforce programs with employment 
and training initiatives administered by the Temporary 
Assistance for Needy Families program.
    In each of these instances, States reported such 
consolidation efforts reduced costs, simplified delivery, 
improved efficiency, and heightened the quality of services 
provided to program recipients. As we work to revitalize our 
economy in the wake of the recent recession, we must encourage 
a robust and responsive job training system that helps American 
workers effectively compete in the 12th century workplace. This 
committee is dedicated to improving job training opportunities 
by streamlining unnecessary bureaucracy, eliminating 
duplicative programs, fostering economic development, and 
encouraging the creation of high-skill and high-wage 
opportunities for workers in the global economy.
    We look forward to hearing your thoughts on modernizing 
federal job training programs and gaining your perspective on 
what should be done in Washington to ensure workers are 
prepared better.
    [The statement of Chairwoman Foxx follows:]

         Prepared Statement of Hon. Virginia Foxx, Chairwoman,
        Subcommittee on Higher Education and Workforce Training

    A quorum being present, the Subcommittee will come to order.
    Good morning, and welcome to the Subcommittee on Higher Education 
and Workforce Training. I'd like to thank our witnesses for joining us 
today. We look forward to your testimony.
    Today's hearing will review ways we can make federal job training 
programs more efficient and effective. Such programs are critical to 
fostering a competitive workforce and assisting unemployed citizens. 
However, serious concerns about program fragmentation and potential 
duplication exist that could result in significant waste.
    A recent Government Accountability Report identified 47 separate 
job training programs administered by 9 federal agencies. Of those 47 
programs, the GAO found 44 overlap with at least one other program. 
Considering the 18 billion dollar price tag attached to these programs, 
a comprehensive review to identify ways we can reduce costs, 
consolidate programs, and improve services is vital.
    In the coming months, Congress will take steps to reauthorize the 
Workforce Investment Act, which was passed more than a decade ago to 
reform the nation's federal job training, unemployment, adult education 
and vocational rehabilitation programs. WIA has helped integrate 
federal and state employment and training programs by requiring 
services be provided through a `one stop' delivery system. However, as 
the GAO report illustrates, there are still areas where overlapping 
programs or services could be further consolidated and improved.
    A number of states have taken it upon themselves to streamline 
state workforce and welfare agencies that administer federally-funded 
programs. For example, Utah established the State Department of 
Workforce Services by merging 6 agencies that administered 23 
employment and training programs. Texas consolidated 28 employment and 
training programs from 10 separate agencies to create the Texas 
Workforce Commission. Additionally, Florida established the Agency for 
Workforce Innovation by merging state workforce programs with 
employment and training initiatives administered by the Temporary 
Assistance for Needy Families program.
    In each of these instances, states reported such consolidation 
efforts reduced costs, simplified delivery, improved efficiency, and 
heightened the quality of services provided to program recipients.
    As we work to revitalize our economy in the wake of the recent 
recession, we must encourage a robust and responsive job training 
system that helps American workers effectively compete in the 21st 
century workplace. This Committee is dedicated to improving job 
training opportunities by streamlining unnecessary bureaucracy, 
eliminating duplicative programs, fostering economic development and 
encouraging the creation of high-skill and high-wage opportunities for 
workers in the global economy.
    We look forward to hearing your thoughts on modernizing federal job 
training programs and gaining your perspective on what should be done 
in Washington to ensure workers are better prepared. I would now like 
to recognize the Ranking Member, Mr. Ruben Hinojosa, for his opening 
remarks.
                                 ______
                                 
    Chairwoman Foxx. We are waiting for Mr. Hinojosa, and I 
will recognize him later for his opening remarks, and we will 
proceed with the testimony of the witnesses who are here.
    Pursuant to Committee rule 7(c), all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record.
    Without objection, the hearing record will remain open for 
14 days to allow statements, questions for the record, and 
other extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    [Additional submissions of Mr. Hinojosa follow:]

   Prepared Statement of the American Society for Clinical Pathology

    Chairman Foxx and distinguished members of the Subcommittee, the 
American Society for Clinical Pathology (ASCP) thanks the Subcommittee 
on Higher Education and Workforce Training for the opportunity to 
comment for the record on the status of the laboratory healthcare 
workforce and the continuing need to train laboratory professionals to 
fill the multitude of available jobs nationwide.
    ASCP is requesting reauthorization of the Workforce Investment Act 
(WIA), with specific provisions to support two and four year training 
programs in laboratory medicine. Designed to consolidate, coordinate, 
and improve employment training, literacy, and vocational 
rehabilitation programs in the United States, WIA represents the best 
possible mechanism to alleviate the shortage of qualified laboratory 
personnel, creating a strong healthcare workforce skilled to meet the 
health needs of an aging population as ``baby boomers'' age and need 
additional medical tests.
    Clinical laboratory testing plays an essential role in the delivery 
of quality health care. America's medical laboratory professionals 
perform the tests that provide physicians, nurses, and other health 
care providers with objective information that is needed to prevent, 
diagnose, treat, and manage disease. It is estimated that laboratory 
data have an impact on 60-80 percent of medical decisions and treatment 
regimens. The contributions laboratory professionals make to patient 
care cannot be overstated. However, there remains a shortage of 
qualified personnel to perform these essential tasks.
    The laboratory personnel shortage hampers the ability of 
pathologists and clinical laboratories to meet the increasing patient 
testing demands that are a result of an aging population and an 
evolving health care system. Solutions to this crisis need to be 
devised to protect our nation's public health.
    Laboratory medicine is unique, not only because of its science and 
impact upon the larger society but also because in the wake of the 
current economic climate, where companies and industries are falling 
prey to tough decisions that boil down to dollars and cents, the 
laboratory offers a rare opportunity where jobs do exist.
    There are medical laboratory science jobs available nationwide. The 
Department of Labor's Occupational Handbook for 2010-2011, lists 
clinical laboratory scientists as a highly promising career, with 
``rapid job growth and excellent job opportunities'' and describes an 
appealing career, with an attractive pay scale and employers waiting to 
hire. In addition, the December 6, 2010 issue of U.S. News and World 
Report listed Lab Technician among the top 50 ``Best Careers for 
2011.'' However, the news from the laboratory front is not as 
favorable. Despite job openings, there remains a shortage of qualified 
laboratory professionals, marked in large part to an insufficient 
number of qualified trained personnel to fill available slots. Many 
laboratory professionals are retiring, training programs are closing 
and there exist an extreme need to feel the gap between the supply and 
demand for qualified laboratorians.
    The U.S. Department of Labor's (DOL) Bureau of Labor Statistics 
estimates that there will be almost 11,000 laboratory technologist/
technician job openings annually through 2018. Unfortunately, the 
programs preparing tomorrow's laboratory workforce train only about a 
third of what is needed. Fewer than 5,000 individuals are graduating 
each year from accredited training programs, that's 10,000 fewer lab 
specialists than needed are being trained in the United States.
    Over the last two decades, our nation's ability to train new 
laboratory practitioners has deteriorated markedly and we have been 
unable to meet the demand for their services. According to the National 
Accrediting Agency for Clinical Laboratory Sciences (NAACLS), the 
number of accredited medical laboratory technology programs, the 
programs that train medical laboratory scientists and technicians, 
dropped from 709 in 1975 to 229 in 2011. Right now, NAACLS reports that 
seven medical laboratory scientist programs and 17 medical laboratory 
technician programs across 20 states are at risk for closure this year. 
Already the following schools fallen victim to budget cuts and were 
forced to close. These included: Arizona State University; the 
University of South Alabama; the University of Wisconsin, Madison; 
Western Carolina University; and the University of Nevada, Las Vegas.
    Despite the vital role that these programs play, they are 
unfortunately expensive to run and require small classes taught by 
qualified professionals. Hospitals, which traditionally conducted most 
of the training, have shifted their resources and closed most of their 
programs. Some state governments have determined that the programs are 
too expensive to maintain because of small class size and the 
investment in laboratory infrastructure needed to adequately train 
students. States and schools have had to find other funding streams in 
order to keep such valuable programs afloat.
    In Minnesota, the state was able to use Department of Labor grant 
money designated for workforce training. The state garnered two grants 
under the Community Based Job Training Program, totaling approximately 
five million dollars and partnered with a local educational institution 
along with a health care system to build a cohesive structure that 
naturally led from training to employment. The numbers tell the story 
of this collaborative success:
    <bullet> During 2006-2008, 308 students graduated from Medical 
Laboratory Technician (MLT) and Medical Laboratory Science (MLS) 
programs.
    <bullet> During the period spanning 2009-2011, the number of 
graduates from MLT and MLS programs rose to 423
    <bullet> From the initial period of 2006-2008 through the 2009-2011 
cycle, there was an increase in the number of graduates; an increase of 
115 graduates or an increased graduation rate of 137.4%
    At San Jose State University federal stimulus dollars are being 
used to help put a dent in a looming shortage of clinical lab 
scientists and those in related fields. The university's Clinical 
Laboratory Scientist Training Program, part of the Department of 
Biological Sciences, won a $5 million grant through the American 
Recovery and Reinvestment Act of 2009 to train future health care 
professionals. ``To fill the needs in California alone, we need to be 
training 850 people a year,'' said Michael Sneary, professor and 
chairman of the Department of Biological Sciences. ``At this point, we 
are training 300.'' California is but a microcosm of a systematic 
problem nationwide.
    <bullet> In California there are 34 clinical lab scientists for 
every 100,000 Californians compared to the national rate of 54 such 
workers for every 100,000 people. Vacancies of nearly one-third of the 
jobs now occupied are predicted for coming years because the average 
age of workers in the field is above 50, as possibly up to one-third of 
staff could be lost to retirements over the next four or five years.
    Minnesota and the San Jose programs are just two examples of the 
synergy and partnership that other states could replicate as they seek 
to resolve the disconnect between needed laboratory personnel and 
available jobs. The missing link continues to be financial resources. 
Congress has the authority to provide financial resources to make job 
training a priority. Despite difficult economic times, investment in 
our nation's future workforce is the key that will not only sustain the 
laboratory but also the nation's economy.
    Reauthorization of the Workforce Investment Act (WIA) remains 
crucial; it is the piece of the puzzle that Congress can and needs to 
fill in as the nation seeks to put together a qualified, marketable 
workforce. It provides the best case scenario to stabilize our nation's 
clinical education and training programs and fill long standing 
vacancies with qualified laboratory professionals.
    In reauthorizing the WIA, Congress should include provisions that 
make institutions of higher learning partners in job creation 
initiatives. This can be accomplished by including provisions in a 
reauthorized WIA that make public institutions of higher education 
automatically eligible as job-training providers. Provisions should be 
included that designate medical laboratory personnel training programs 
as one of a group of preferred programs where a large number of jobs 
vacancies exist. Congress must close the gaps between workforce 
training, adult basic education and postsecondary education to give 
workers the skills and knowledge they need in today's economy.
    As a nation, we continue to struggle to put our citizens to work. 
There seems to be an inability to make the financial investment to put 
America to work. In contrast, Minnesota, California and a small program 
in Nevada have been lucky enough and resourceful enough to create a 
cobblestone path from education to employment based from government 
sources such as the WIA. What about the remaining 47 states? What about 
the states that each Member of this Subcommittee represents? How will 
your constituents have their laboratory needs met, if there are no 
skilled professionals to read and understand the blood draws, the 
biopsies, the pap smears? These creative approaches to funding needed 
education in some sort of patchwork format grew out of necessity, it 
should not however replace a national commitment to job training. 
Investment in education and job training is the catalyst for building a 
strong workforce that contributes to society and strengthens the 
nation's economy. An investment in laboratory professions training is 
the key to establishing a marketable workforce capable of providing 
skills that bolster the health and well-being of a nation.
                                 ______
                                 

       Prepared Statement of Maureen Conway, Executive Director,
          Economic Opportunities Program, the Aspen Institute

    Thank you Chairwoman Foxx, Ranking Member Hinojosa and members of 
the subcommittee for allowing me to submit this written testimony on 
behalf of the Aspen Institute's Economic Opportunities Program. For 
over 20 years, the Aspen Institute's Economic Opportunities program has 
investigated fields of practice that offer low-income Americans the 
chance to participate fully in the American economy. Our work includes 
investigations of promising approaches to helping Americans gain the 
skills they need to find better jobs or to start businesses, providing 
much needed income and opportunity for themselves and their families. 
We have also examined opportunities to develop sustainable financial 
products and educational strategies that can help these low-income 
Americans better manage their income and assets, building a more 
promising economic future. We believe all Americans deserve a chance to 
both contribute to and benefit from our country's economic vibrancy.
    Today, more than ever, it is critical for all capable workers to 
develop and contribute their talents. We face many economic challenges 
not only now, but as we look to the future. Consider the demographics 
of our workforce. The proportion of our workforce that is 55 or older 
is projected to double in the short space of 20 years, going from a 
little over 12% in 1998 to nearly 25% in 2018.\1\ In addition, the 
proportion of workers who are African American or Hispanic is expected 
to grow over the coming years, while the proportion of workers who are 
white will decline. The increasing diversity of our nation is in many 
ways a strength. It is also unfortunately a reality that these minority 
populations have disproportionately struggled in underperforming 
schools, are low-income, and as a result often have low levels of 
educational attainment. As the exigencies of economic competitiveness 
require growth in the skills and abilities of the American workforce, 
we need to ensure those workers remaining in the workforce--workers of 
all ages and backgrounds--have the opportunity to develop skills that 
are in demand in today's economy and to become full participants in our 
nation's economic recovery and revitalization.
---------------------------------------------------------------------------
    \1\ Mitra Toosi, ``Labor Force Projections to 2018: Older Workers 
Staying More Active'', Monthly Labor Review, US Bureau of Labor 
Statistics: Washington DC, November 2009. (http://www.bls.gov/opub/mlr/
2009/11/art3full.pdf).
---------------------------------------------------------------------------
    Since the mid-1990s, the Workforce Strategies Initiative at the 
Aspen Institute (AspenWSI) \2\ has been studying and exploring 
industry-specific or sectoral approaches to workforce development. 
These strategies address problems confronting both individuals who need 
better employment opportunities and companies that need skilled 
workforces. Thus they are designed based on the specific needs of 
employers and workers in local communities. Sector strategies are 
implemented by a range of institutions and groups working 
collaboratively, including community- and faith-based organizations, 
business and industry groups, community and technical colleges, 
Workforce Investment Boards, and others. Some of these partnerships 
operate initiatives focused on one target industry in a specific 
geographical region; others work simultaneously in a handful of 
industry sectors; a few take a cross-regional or multi-site approach.
---------------------------------------------------------------------------
    \2\ AspenWSI is an initiative of the Economic Opportunities Program 
(http://www.aspenwsi.org).
---------------------------------------------------------------------------
    Over the years of our research we have confirmed that sector 
strategies are effective in helping low-income workers find employment 
and improve their earnings. We did some of the earliest outcome 
research that documented employment and earnings gains achieved by 
these programs. More recently we collaborated with Public/Private 
Ventures on a study that employed an experimental design, looking at 
three distinct sector initiatives, and we found significant impacts in 
terms of employment and earnings.\3\ In 2010 we released reports 
detailing extremely promising employment and education outcomes of 
sector initiatives that are partnerships between nonprofits and 
community colleges.\4\ In addition, while more difficult to study with 
as rigorous a research design, we have also seen evidence that sector 
programs can provide significant benefits to employer customers in 
terms of reducing employment vacancy rates, lowering turnover, 
enhancing productivity, improving customer satisfaction, and other 
specific and highly valued business outcomes.\5\
---------------------------------------------------------------------------
    \3\ Sheila Maguire, Joshua Freely, Carol Clymer and Maureen Conway, 
Job Training That Works: Findings from the Sectoral Employment Impact 
Study, P/PV In Brief (Public/Private Ventures), May 2009, http://
www.ppv.org/ppv/publications/assets/294--publication.pdf. SEDLP 
Research Report No. 3: Gaining Ground: The Labor Market Progress of 
Participants of Sectoral Employment Development Programs, February 
2002, http://www.aspenwsi.org/publicationdetailsdb.asp?pid=9
    \4\ For detailed information on the employment and education 
outcomes of participants of five sectoral initiatives operated in 
partnership by nonprofit organizations and community colleges, see 
http://www.aspenwsi.org/pubs-topic.asp#Ed.
    \5\ The Aspen Institute, Workforce Strategies Initiative, Business 
Value Assessment Examples, http://www.aspenwsi.org/WSIwork-
BVAexample.asp.
---------------------------------------------------------------------------
    For the purposes of the committee's work in examining how to reduce 
inefficiencies in our nation's workforce system, and in particular in 
consideration of the issues posed by the existence of multiple federal 
programs that provide resources for employment and training, it is 
critical to distinguish between this type of highly effective program 
and an employment and training ``program'' as defined by a federal 
funding source. Sectoral programs are defined by the strategies they 
pursue in working with local employers and with residents in their 
community, and by the choices they make in terms of curricula used, 
services offered, and other specific activities undertaken in order to 
meet the needs of the industries and the job seekers they serve. In 
contrast, federal programs generally have specific purposes, may define 
eligible populations to be served, often outline eligible uses of funds 
and may require reporting on specific activities, such as numbers 
served, or accomplishments, such as number of trainees who found jobs 
or experienced wage gains, but there is nonetheless scope within those 
guidelines to make a variety of strategic choices. So while sectoral 
programs often use (and need) federal funds, they cannot be accurately 
characterized as a ``WIA program'' or a ``Wagner-Peyser program'' or a 
``SNAP program''. A sectoral program may be supported by one or more 
federal sources depending upon the needs of its industry and community, 
and how these needs match up with federal priorities and criteria as 
stated in the guidelines.
    Indeed, rarely does a sector program rely on any single source of 
funding, but rather a mix of funds from public and private funding 
streams is pulled together to develop an operating budget that covers 
the training and other services needed to serve participants and work 
with employers effectively.\6\ Program leaders patch together an 
operating budget from different sources for a variety of reasons. Below 
are a few of the key reasons:
---------------------------------------------------------------------------
    \6\ For additional information describing how sector initiatives 
finance their activities and services, please see: Aspen Institute, 
Workforce Strategies, Update Issue 5: The Price of Persistence: How 
Nonprofit-Community College Partnerships Manage and Blend Diverse 
Funding Streams, February 2011, http://www.aspenwsi.org/
publicationdetailsdb.asp?pid=47.
---------------------------------------------------------------------------
    a) Participants meet different eligibility criteria for services. 
Some meet income guidelines, others are TANF recipients, some are youth 
and some live within designated zip codes. Quality sector programs, 
however, are looking for candidates who have an interest in the 
industry, meet specific industry criteria or aptitudes, and are likely 
to benefit from the training and other services the program can offer.
    b) Funding streams serve different purposes. For example some 
funding can only be used to pay for training services, while other 
funding streams allow expenditures on supportive services, such as 
counseling and case management, transportation assistance, stipends or 
other supports, that many lower-income workers need to stay in and 
succeed in a training or education program. Other funding allows 
resources to be dedicated to equipment acquisition or materials 
purchases that allows training to be better tailored to an industry's 
needs, etc. Thus a mix of funding is often needed in order for a 
program to develop a complete package of services that address both 
worker and industry needs.
    c) Levels of federal funding from any one program vary dramatically 
from year-to-year, and thus relying on any single funding source can be 
very risky.
    d) It is rare to find a single funding source that provides a 
sufficient level of funding to support a quality program.
    It is critical that in reviewing federal job training, we must be 
clear and not confuse a funding stream with an actual program design on 
the ground. To evaluate effectiveness, we must know more about what's 
actually being done with the money. Based on our years of research, we 
know that some approaches work, and we have learned a great deal about 
how these effective programs operate. A critical challenge highlighted 
in the GAO's report is that we do not know enough about what service 
providers are doing with the money they receive and what they are 
accomplishing.
    We do know, however, that there are programs doing good and 
valuable work that is supported through federal funding. For example, 
in the study on which we collaborated with Public/Private Ventures, two 
of the participating programs relied, in part, on Workforce Investment 
Act funding.
    The critical question then is how to ensure that federal dollars 
are being used to build and support effective programming and we 
believe that this is where federal investments should be focused. We 
hope the committee will recognize the valuable contribution that 
federal job training funds have made to addressing our nation's 
employment and workforce skills challenges. We believe there is great 
opportunity to build upon the effective work that has happened to date, 
spreading effective practices and approaches to more communities and 
supporting high quality job training programs for a variety of American 
workers.
                                 ______
                                 

  Prepared Statement of Harry J. Holzer, Professor of Public Policy, 
      Georgetown University and Institute Fellow, Urban Institute

    I would like to share my thoughts on the Workforce Investment Act 
(WIA), and particularly on the levels at which it should be funded, in 
Fiscal Year 2012 and beyond. These thoughts reflect my nearly 30 years 
of research and writing on these issues as a labor economist, including 
a stint as Chief Economist of the U.S. Department of Labor.
    There is little doubt among most labor market analysts that the 
growth of education and skills among American workers has not kept up 
with growth in the labor market demand for these skills in the past 
three decades (Goldin and Katz, 2008). In order for productivity gains 
to be widely shared among Americans, and for employers to be able to 
fill vacant jobs with highly productive workers, the skill levels of 
our workers will need to increase. And the skills that will be demanded 
in the labor market are not only those represented by BA or more 
advanced degrees from four-year colleges and universities, but also the 
``middle skill'' categories in many sectors that include a wide range 
of education and training credentials beyond high school (Holzer and 
Lerman 2007; Holzer, 2010).
    In order for the skills of American workers to rise in ways that 
meet our labor market demands, we need an effective workforce 
development system that is well-coordinated with our systems of 
secondary and postsecondary education. On their own, and without 
effective workforce programs, our institutions of higher education are 
unlikely to generate workers with the skills needed to meet our labor 
market needs. For one thing, the dropout rates at many such 
institutions (especially community colleges) are extremely high; large 
percentages of students leave without earning any kind of credential at 
all (Bailey et al., 2005). And, among those who complete a degree or 
certificate program, many do not attain good-paying jobs (Jacobson and 
Mokher, 2009).
    At least partly, these outcomes reflect the fact that many 
institutions of higher education provide little in the way of career 
counseling or labor market services for students that would effectively 
point them towards good-paying jobs and careers (Jacobson and Mokher, 
op. cit.; Soares, 2009). And, perhaps due to their previous levels of 
education or their family situations, not all workers are able to 
attend or succeed at institutions of higher education; instead, many 
need some kind of job training that is targeted towards specific jobs 
and sectors of the market that do not require as much in the way of 
academic skills.\1\ Also, while employers could provide more on-the-job 
training to meet their skill needs, there are many reasons for why they 
often choose not to do so, especially for their non-professional and 
non-managerial employees.\2\
---------------------------------------------------------------------------
    \1\ These alternatives include apprenticeship programs in 
construction or other fields as well as a variety of certificate 
programs in the health services and information technology. Programs 
that train machinists and precision welders for advanced manufacturing 
are also frequently offered in non-college settings.
    \2\ Employers are often unwilling to invest in general training for 
workers who might soon leave their firm or whose basic skills are 
questionable. Also, imperfections in information and the capital 
markets further constrain their ability or willingness to do so (Lerman 
et al., 2004).
---------------------------------------------------------------------------
    For all these reasons, a strong workforce system remains critical 
to maintaining a labor market in which skilled workers are well-matched 
to the jobs that require and reward such skills. Jobseekers often need 
assistance locating the best local jobs for which they are qualified; 
they might need counseling about how best to upgrade their skills and 
for what kinds of jobs and careers; and they might need funding for 
such training. Training resources also need to be directed towards 
sectors with good-paying jobs that are in high demand. Indeed, the 
core, intensive and training services provided at One-Stop centers 
around the country that are funded by WIA, especially Title I, do all 
of these things.
    Unfortunately, the overall resources that fund our workforce system 
have declined dramatically over time, both in an absolute sense 
(adjusted for inflation) and especially relative to the size of our 
economy and workforce. Indeed, since 1980 WIA expenditures (compared to 
its predecessor programs, CETA and JTPA) have fallen by as much as 90 
percent, while our economy has doubled in size and our workforce has 
grown by nearly half (Holzer, 2009). We now lag behind almost all other 
industrial countries in the share of our GDP that we devote to such 
efforts (O'Leary et al., 2004).
    At the same time, the scope of employment services funded by WIA 
has risen dramatically, as the services have become more universal and 
the number of individuals receiving training has diminished. In fact, 
in a nearly $15T economy with over 153 million workers, the roughly 
$2.8B now available (in FY 2011) in Title I formula funds provides 
about $18 per American worker--much too small a sum to greatly affect 
the skills and employment outcomes of American workers in the 
aggregate.
    Our national unwillingness to sufficiently fund our workforce 
system reflects, to some extent, a widespread belief that such 
expenditures are wasteful or ineffective. But the literature based on 
rigorous research of WIA programs does not bear out this point of view. 
Indeed, the most rigorous studies of programs funded under WIA 
(summarized in Heinrich and King, 2010) suggest that these modest 
investments are quite cost-effective on an individual basis, generating 
significantly higher earnings for those who receive them. This is 
particularly true of ``sectoral'' programs that target growing 
industries providing high-paying jobs, and often actively involve 
employers in the process of training workers to fill their jobs 
(Maguire et al., 2010; Roder and Elliott, 2011).
    And the concerns that have been recently expressed over duplication 
across federally-funded employment programs are quite overblown. 
Estimates by the U.S. Government Accountability Office (GAO) show that, 
while there are many employment and training programs scattered through 
the federal budget, they generally target towards very small and 
specific populations and expend very few resources in the aggregate. 
Overall, the need for such services among American workers far 
outstrips overall available funding.
    Not all estimated training impacts have been as positive as they 
can be, and therefore our workforce systems still need to evolve and 
incorporate our growing understanding of what constitute ``best 
practices.'' This is especially true for some of our least-skilled 
workers and for out-of-school youth.\3\ Some of the most promising 
models, like ``career pathways,'' need further development and rigorous 
evaluation. Workforce development efforts also need to be better 
integrated with the higher education and economic development programs 
of states, though some have made considerable progress on this front in 
recent years.
---------------------------------------------------------------------------
    \3\ For instance, the most recent evaluations of the Job Corps show 
positive and cost-effective impacts that tend to fade over time for 
teens, though not for older youth (Schochet et al., 2008). Estimates of 
the impacts of youth funding under the Job Training Partnership Act 
(JTPA), the predecessor of WIA, were not positive (Orr et al., 1997), 
though we know little about their impact under WIA. And recent 
evaluations of training impacts for the hardest-to-serve populations 
have generated mixed results (Bloom and Butler, 2007).
---------------------------------------------------------------------------
    However, these improvements will likely not occur in a system that 
is effectively starved of needed resources. Instead, appropriate 
incentives (through better and simpler performance measures on formula 
funds) and technical assistance should be provided, along with the 
resources, to make sure that such improvements occur. Workforce 
innovations should be competitively funded and rigorously evaluated; 
and this continuously growing body of knowledge should then inform our 
workforce legislation and its funding of ``best practices'' in the 
field.
    An appropriately funded education and workforce system that 
generates more knowledge about effective practices and adapts to labor 
market changes over time is what we should aspire to build over time--
not with ill-informed budget cuts but with sensible program adjustments 
and an adequate base of funding.
                               references
Bailey, Thomas et al. 2005. ``Graduation Rates, Student Goals, and 
        Measuring Community College Effectiveness.'' Community College 
        Research Center, Columbia University.
Bloom, Dan and David Butler. 2007. ``Overcoming Employment Barriers: 
        Strategies to Help the Hard-to-Employ.'' In H. Holzer and D. 
        Nightingale eds. Reshaping the American Workforce for a 
        Changing Economy. Washington DC: Urban Institute Press.
Goldin, Claudia and Lawrence Katz. 2008. The Race Between Education and 
        Technology. Cambridge MA: Harvard University Press.
Heinrich, Carolyn and Christopher King. 2010. ``How Effective are 
        Workforce Development Programs? Implications for U.S. Workforce 
        Policies in 2010 and Beyond.'' University of Texas at Austin, 
        October.
Holzer, Harry. 2010.''Is the Middle of the U.S. Job Market Really 
        Disappearing? Comments on the Polarization Hypothesis.'' 
        Washington DC: Center for American Progress.
Holzer, Harry. 2009. ``Workforce Development Policies as an Antipoverty 
        Strategy: What do We Know? What Should We Do?'' In M. Cancian 
        and S. Danziger eds. Changing Poverty. New York: Russell Sage 
        Foundation.
Holzer, Harry and Robert Lerman. 2007. ``America's Forgotten Middle-
        Skill Jobs: Education and Training Requirements for the Next 
        Decade and Beyond.'' Washington DC: The Workforce Alliance.
Jacobson, Louis and Christine Mokher. 2009. Pathways to Boosting the 
        Earnings of Low-Income Students by Increasing their Educational 
        Attainment. Arlington VA: CNA.
Lerman, Robert et al. 2004. ``The Scope of Employer-Provided Training 
        in the U.S.: Who, What, Where and How Much?'' In C. O'Leary et 
        al. eds. Job Training Policy in the United States. Kalamazoo 
        MI: W. E. Upjohn Institute for Employment Research.
O'Leary, Christopher et al. 2004. ``Public Job Training: Experience and 
        Prospects.'' In C. O'Leary et al. eds. Job Training Policy in 
        the United States. Kalamazoo MI: W. E. Upjohn Institute for 
        Employment Research.
Orr, Larry et al. 1997. ``The Benefits and Costs of JTPA Title II-A 
        Programs.'' Journal of Human Resources.
Roder, Anne and Mark Elliott. 2011. A Promising Start: Year Up's 
        Initial Impacts on Low-Income Young Adults' Careers. New York: 
        Economic Mobility Corporation.
Schochet, Peter et al. 2008. ``Does Job Corps Work? Impact Findings 
        from the National Job Corps Study.'' American Economic Review. 
        December.
Soares, Louis. 2009. Working Learners: Education our Entire Workforce 
        for Success in the 21st Century. Washington DC: Center for 
        American Progress.
                                 ______
                                 

       Prepared Statement of Joan Kuriansky, Executive Director,
                     Wider Opportunities for Women

    Thank you Chairwoman Foxx, Ranking Member Hinojosa and members of 
the subcommittee for allowing me to submit this written testimony. WOW 
appreciates the opportunity to submit testimony about the efficiency 
and effectiveness of the nation's workforce system. Wider Opportunities 
for Women (WOW) is a nonprofit organization that works nationally to 
build pathways to economic security for America's women and their 
families. For more than 40 years, WOW has helped women learn to earn, 
with programs emphasizing literacy, technical and nontraditional 
skills, welfare-to-work transition, career development and retirement 
security. Today, WOW is recognized nationally for its skills training 
models, technical assistance and advocacy for women workers.
    In January 2011, the Government Accountability Office released a 
report analyzing the federal workforce education and training system. 
The report findings are being distorted by some in a misdirected 
attempt to exact substantial program cuts that will jeopardize both the 
economic recovery and workers trying to achieve economic security. To 
the contrary, cutting the very programs that have helped people find 
new jobs is a short-sighted budget maneuver that will hurt recent 
economic growth and ultimately put less money in the hands of 
struggling families and ultimately the economy as a whole.
    Jobs continue to be scarce with the number of working poor 
increasing and their wage values continuing to fall in many jobs.\1\ 
The unemployment rate for women who maintain families are even higher 
than the national average and the underemployment rate for workers with 
less than a high school degree has risen. Millions of Americans who 
work full-time cannot pay their basic living expenses let alone have 
enough money to make investments in their future. These harsh realities 
demonstrate the need for reinforcing the safety net for hard working 
families facing hard times and supporting programs and policies that 
contribute to moving families to economic security such as those 
contained within the workforce system.

Education and Training Is An Effective Tool to Move Families to 
        Economic Security
    GAO stated that ``federally funded employment and training programs 
serve an important role in our society by helping job seekers enhance 
their job skills, identify job opportunities, and obtain employment.'' 
\2\ Education pays; the more education one has the higher their 
wages.\3\ ``Every additional level of education completed leads to 
increased earnings and lower rates of unemployment.'' \4\
    WIA has experienced a 234 percent increase in demand for services 
over the past two years, and has risen to the challenge of assisting 
millions of individuals annually to secure employment.\5\ As our 
country continues to recover from the recession eliminating or even 
reducing employment and training programs\6\ is a step that will 
further harm both businesses and workers, not support them. Employer 
associations like Deloitte Touche and the Manufacturing Institute have 
been crying out for job training programs. Manufacturing employment has 
shown signs of an unexpected recovery that is dependent to a 
significant degree on access to a skilled workforce.
    Workforce development programs work. In the last year at height of 
the recession, WIA programs helped 4.3 million workers find employment 
out of 8 million who entered the program. Hundreds of thousands more 
enrolled in education and skill training through WIA, career and 
technical education in community colleges and a variety of other job 
training programs. Here in Washington, of the 278 women and men who 
completed our Building Futures pre-apprenticeship construction program, 
74% gained employment during the two years that ended April 31, 2011. 
This program, has been supported by the Women in Apprenticeship and 
Nontraditional Occupations (WANTO) program, administered by the Office 
of Apprenticeship and Women's Bureau at DOL, and green jobs training 
funds from the Recovery Act administered by the GSA.

Funding for Education and Training Programs Has Continued To Decrease
    The GAO report states that ``In fiscal year 2009, 9 federal 
agencies spent approximately $18 billion to administer 47 programs--an 
increase of 3 programs and roughly $5 billion since our [GAO] 2003 
report.\7\ This increase, as GAO importantly highlights, was temporary 
resulting from American Recovery and Reinvestment Act of 2009 (ARRA) 
investments that are now no long longer available.
    Funding for programs such as Workforce Investment Act (WIA) and 
Temporary Assistance to Needy Families (TANF) has gone down to their 
pre-ARRA rates. These pre-ARRA rates are rates that have significantly 
decreased over the years as neither has been reauthorized--WIA since 
1998 and TANF since 2005. In fact, TANF funds have not been adjusted 
since TANF was created in 1996.

Programs Provide Critical Services Targeted to Participants
    Critics of workforce development programs were quick to highlight a 
GAO finding there are 47 programs with significant overlap. However, a 
more in-depth read of the GAO report\8\ provides further detail--the 
vast majority of programs are provided through DOL and HHS and in fact, 
76 percent of all funding and 91 percent of all participants identified 
by the GAO are served through programs authorized under WIA.\9\ 
Programs funded outside of DOL and HHS are typically for specific 
populations such as veterans or youth or for specialized industries 
such as in the case of the Brownfield job training program under the 
Environmental Protection Agency and; have broader goals such as the 
employment and training services of TANF. Moreover, services provided 
often differ in meaningful ways.'' \10\ For example, individuals within 
a population group may be eligible for one program, but not another 
because program eligibility criteria differ and overlapping programs 
also have different objectives.\11\ HHS points out that some overlap is 
appropriate and necessary so as not to exclude populations from 
receiving certain services--this does not imply duplication.
    As pointed out in the report, many of the programs critics point to 
as wasteful or duplicative, in fact, have no overlap with any other 
program and serve a unique population, such as the Brownfield Job 
Training Cooperative Agreements program, the Senior Community Service 
Employment Program, and the Women in Apprenticeship and Nontraditional 
Occupations (WANTO) program. In fact, recent proposals would cut 
SCSEP--a unique and vital program gives low-income, unemployed seniors 
work experience that can be applied to post-retirement careers--almost 
in half.
    WANTO is the only job training specifically designed for girls and 
women seeking to enter occupations where they are currently less than 
25% of the workforce. These are occupations where they can earn 30% or 
more than in jobs traditionally occupied with women who have less than 
a 4-year degree. One example is the building trades where women are 
currently less than 5% of the workforce. Others are in high-paying 
technical occupations such as office machine repair where women make up 
only 11% of the workforce and where the median weekly wage was $832 in 
2009. WANTO is a small ($1 million), competitive grant program that 
supports organizations that have staff with specific experience in 
outreach, recruitment and career counseling to see the possibilities 
these fields offer and to learn the specialized skills necessary to 
succeed. WANTO tackles gender stereotyping, mentors women on the job, 
and works with employers and labor unions to ensure that, once employed 
in a nearly all-male workplace, they are able to remain in the job and 
have a lifetime career.

Better System Alignment Does Not Equal Program Funding Cuts
    The GAO report findings can inform decisions leading to improved 
system alignment, a goal that we share along with those in Congress and 
the Administration who are working to reauthorize the Workforce 
Investment Act. The Senate Health, Education, Labor and Pensions 
Committee is reportedly planning to introduce a bi-partisan proposal to 
reauthorize WIA in the near future that would move toward better 
alignment. Over the years, WOW has supported other reauthorization 
bills that moved toward program alignment, including the use of a Self-
Sufficiency measure in goal setting and evaluation, as defined in the 
Carl D. Perkins Act of 2006 the Green Job Act of 2007.
    At the same time, the GAO report should not, be used to rationalize 
further cuts in training services that currently are funded at 40 
percent less than they were in 2002, adjusted for inflation. Research 
shows that a stable funding structure is needed for One-Stop Career 
Centers to be successful.'' \12\ Achieving the goal of streamlining 
services must be done in a way that recognizes the realities of those 
the program services. Streamlining can simultaneously afford states 
flexibility to respond to local needs and should be achieved without 
losing connection to other important supports needed such as those 
needed by TANF enrollees. GAO highlights that factors, such as the 
number of clients that any one-stop center can serve and one-stops' 
proximity to clients, particularly in rural areas, could warrant having 
multiple entities provide the same services.\13\ We need more 
information about strategies and results of such initiatives to 
understand how states and localities should undertake streamlining of 
services and if such an undertaking would garner cost savings and 
greater administrative efficiencies. Further, service alignment or 
streamlining would take time to implement and not likely realize 
financial benefits for some time. DOL and DHHS could begin by 
disseminating information that could inform efforts recommended by GAO. 
Currently, however, HHS lacks legal authority to mandate increased 
TANF-WIA coordination to create incentives for such efforts.\14\

Program Outcomes Can Be Improved by Employing Practices Known To Work
    Despite critiques that there is no program outcome data--the fact 
is, we do have outcome data from the programs including entered 
employment, employment retention, and wage gain or change. The 
Department of Labor has inaugurated a rigorous evaluation program and 
proposals have also been made in the context of WIA reauthorization.
    Research entities such as MDRC, for example, have provided concrete 
information on what makes an education and training program effective. 
Their research showed that programs providing financial incentives to 
supplement earnings in combination with services can promote employment 
retention among low-wage workers. Low-wage workers often advance by 
changing jobs and that matching individuals with jobs in particular 
firms that pay higher wages can be an effective strategy to promote 
advancement.\15\ Even more directly, data from Jobs for the Future show 
that:
    <bullet> Employment and training services under the WIA Adult 
Program generate significantly higher earnings and employment rates. 
The impacts persist for several years resulting in a minimum 10 to 15 
percent boost in annual earnings for disadvantaged adults, and return 
$1.50 for every dollar invested by society.
    <bullet> Women's earnings are boosted by as much as 25 percent 
($2400 annually) and men's earnings by 10 to 15 percent ($1700 
annually) from the program's services.
    <bullet> Core and intensive counseling and job placement services 
are cost effective, raising employment rates by 6 to 10 percent 
quarterly; and training increases earnings by at least 10 percent, with 
training most closely connected to employers (such as on-the-job and 
sector-based training) creating returns of 15 to over 20 percent.\16\

Business Can Improve Their Partnership with the Workforce Development 
        System
    Last year, WIA served 8 million jobseekers; over 4.3 million 
secured jobs through the system; and hundreds of thousands of WIA 
participants received training to prepare for new careers.\17\ Can 
corporate America pick up the slack? They haven't. Business is a 
partner within the workforce development system and is at the table to 
assure its needs are met along with workers looking to improve their 
financial status. Business and the workforce education and training 
system could certainly do better to align programs and services to 
ensure full mutual benefits are achieved--but simply put, government 
programs fill in the gap when there is broad need.
    The workforce system does provide vital services to employers, 
including brokering training and helping employers find the skilled 
workers they need to be competitive while matching workers to 
employment.

Conclusion
    Poverty is on the rise and is projected to increase in the coming 
years as the country makes its way out of this recession. It is 
essential that the foundation of our safety net is there for 
individuals and families and that it provide the opportunity to improve 
their economic security. We know that the path to self-sufficiency for 
low income, low--skilled workers often requires career pathways that 
lead to economically secure jobs. Eliminating education and training 
opportunities that foster economic advancement is not the right path.
    Indeed the GAO findings can be used as a guide for system 
improvements. Its intent was not, nor should it be, used to rationalize 
massive, arbitrary program cuts. Job training and education have been 
proven to assist low-income working families increase their wages and 
employers to build a skilled workforce. Those with a college degree, on 
average, can earn twice as much as high school graduates.\18\ We still 
have 13.7 million American workers unemployed. We must make smart 
investments in spending that foster an educated workforce that can move 
workers to economic security with the skills that are needed for a 
strong economy.

                               REFERENCES

    <bullet> March 2011 http://www.gao.gov/new.items/d11318sp.pdf 
Opportunities to Reduce Potential Duplication in Government Programs, 
Save Tax Dollars, and Enhance Revenue
    <bullet> January 2011 http://www.gao.gov/products/GAO-11-92 
Multiple Employment and Training Programs: Providing Information on 
Colocating Services and Consolidating Administrative Structures Could 
Promote Efficiencies
    <bullet> National Skills Coalition: Federal Job Training Programs 
are Meeting Critical Skilled Workforce Needs. http://
www.nationalskillscoalition.org/homepage-archive/nsc-responds-to-
coburn.html

                                ENDNOTES

    \1\ U.S. Department of Labor, Bureau of Labor Statistics, Report 
1027, A Profile of the Working Poor, 2009. Retrieved from the Internet 
at http://www.bls.gov/cps/cpswp2009.pdf on May 16, 2011; and Economic 
Policy Institute. Entry Level Workers Face Lower Wages. August 24, 
1999. Retrieved from the Internet at: http://www.epi.org/economic--
snapshots/entry/webfeatures--snapshots--archive--02171999/ on May 16, 
2011
    \2\ Government Accountability Office. Report to Congressional 
Requesters. Multiple Employment And Training Programs: Providing 
Information on Colocating Services and Consolidating Administrative 
Structures Could Promote Efficiencies. January 2011. http://
www.gao.gov/new.items/d1192.pdf p 7
    \3\ Bureau of Labor Statistics. Employment Projections. Education 
Pays. http://www.bls.gov/emp/ep--chart--001.htm
    \4\ Bureau of Labor Statistics. Job Outlook by Education, 2006-
2016. Fall 2008 http://www.bls.gov/opub/ooq/2008/fall/art01.pdf page 5
    \5\ Statement of Raymond J. Uhalde Vice President, Jobs For The 
Future. Before the Subcommittee on Labor, Health and Human Services, 
Education and Related Agencies, Committee on Appropriations United 
States House of Representatives http://appropriations.house.gov/--
files/040711TestimonyofRaymondUhaldeVPJobsfortheFuture.pdf
    \6\ Government Accountability Office. Report to Congressional 
Requesters. Multiple Employment And Training Programs: Providing 
Information on Colocating Services and Consolidating Administrative 
Structures Could Promote Efficiencies. January 2011. http://
www.gao.gov/new.items/d1192.pdf page 8. Employment and training 
programs are defined by GAO as--a program that is specifically designed 
to enhance the specific job skills of individuals in order to increase 
their employability, identify job opportunities, and/or help job 
seekers obtain employment.
    \7\ Ibid page 2
    \8\ Ibid--Figure 1 page 12
    \9\ Statement of Raymond J. Uhalde Vice President, Jobs For The 
Future. Before the Subcommittee on Labor, Health and Human Services, 
Education and Related Agencies, Committee on Appropriations United 
States House of Representatives http://appropriations.house.gov/--
files/040711TestimonyofRaymondUhaldeVPJobsfortheFuture.pdf Page 3
    \10\ Government Accountability Office. Report to Congressional 
Requesters. Multiple Employment And Training Programs: Providing 
Information on Colocating Services and Consolidating Administrative 
Structures Could Promote Efficiencies. January 2011. page 19
    \11\ Ibid pages 22/23
    \12\ The Nelson A. Rockefeller Institute of Government. The 
Workforce Investment Act in Eight States, Burt S. Barnow, Johns Hopkins 
University; Christopher T. King University of Texas at Austin. Prepared 
for: U.S. Department of Labor Employment and Training Administration. 
February 2005. http://www.rockinst.org/pdf/workforce--welfare--and--
social--services/2005-02-the--workforce--investment--act--in--eight--
states.pdf. Pages 13-14
    \13\ Government Accountability Office. Report to Congressional 
Requesters. Multiple Employment And Training Programs: Providing 
Information on Colocating Services and Consolidating Administrative 
Structures Could Promote Efficiencies. January 2011. page 2
    \14\ Ibid page 101
    \15\ MDRC. The Employment Retention and Advancement Project: How 
Effective Are Different Approaches Aiming to Increase Employment 
Retention and Advancement? Final Impacts for Twelve Models. April 2010. 
http://www.mdrc.org/publications/558/execsum.pdf
    \16\ Statement of Raymond J. Uhalde Vice President, Jobs For The 
Future. Before the Subcommittee on Labor, Health and Human Services, 
Education and Related Agencies, Committee on Appropriations United 
States House of Representatives http://appropriations.house.gov/--
files/040711TestimonyofRaymondUhaldeVPJobsfortheFuture.pdf Page 3
    \17\ Ibid
    \18\ Georgetown University. Center on Education and the Workforce. 
College is Still the Best Option. Retrieved from the Internet at: 
http://www9.georgetown.edu/grad/gppi/hpi/cew/pdfs/
college%20still%20best%20option.pdf page 3. on May 16, 2011.
                                 ______
                                 
    [Additional submission of Mr. Tierney follows:]

          Prepared Statement of John Twomey, on Behalf of the
                     National Workforce Association

    Thank you for the opportunity to submit this testimony on behalf of 
the National Workforce Association (NWA) on Removing Inefficiencies in 
the Nation's Job Training Programs.
    In improving efficiencies in the nation's job training efforts, we 
believe that Congress must consider these two immutable but competing 
factors:
    1. We are in an exceptionally difficult fiscal environment where 
more than ever every single dollar must be wisely spent. We are 
unlikely to see increased federal investment in the foreseeable future; 
in fact we are likely to see some level of reduced funding for 
workforce development. So doing more will require squeezing greater 
efficiencies out of the multiple programs Congress has authorized over 
the years.
    2. At the same time, our global competitors have been increasing 
their investments in education and workforce development. Our high 
school completion rate lags well behind many of the other developed 
nations in the OECD (Organization of Economic Cooperation and 
Development). Our 15 year olds consistently score 23rd out of the 30 
developed countries which whom we compete in today's global economy. 
According to the U.S. Department of Education's National Assessment of 
Adult Literacy Skills (NAALS, released January 2009), 14% of working 
age Americans are in NAALS Level 1--either totally illiterate or at 
best they can read one sentence. And our young people 25 to 34 have 
slipped to 9th in the world in the percentage that have a postsecondary 
degree. In fact, of all the developed countries, only in Germany and 
the United States are young working age people less educated than their 
parents.
    For the above reasons the National Workforce Association believes 
now is the time to better align and coordinate federal job training 
efforts. During this fiscal crisis we must narrow the gap with our 
global competitors, not risk it widening even further.
    NWA's general observations-on The Government Accountability 
Office's January 2011 report entitled
Multiple employment and training programs
    Providing Information on Collocating Services and Consolidating 
Administrative Structures Could Promote Efficiencies are as follows:
    <bullet> We agree with GAO that ``Federally funded employment and 
training programs play an important role in helping job seekers obtain 
employment.''
    <bullet> We also believe that the 47 programs listed in the report 
were all authorized by Congress in a different time, to address real 
problems facing specific target populations.
    <bullet> We respectfully point out that GAO found ``overlap'' not 
``duplication''. Probably the best example of overlap as opposed to 
duplication is in delivery of disabled veteran's programs and homeless 
veteran's programs. Both initiatives have a strong job training 
component and serve veterans; but obviously you would need to hire very 
different staff expertise and embrace different strategies when dealing 
with young men and women who bravely served their country and now 
suffer post traumatic stress than a veteran who lost his or her legs to 
an Improvised Explosive Device.
    In the case of the above two programs merging them is not the 
answer. NWA believes that they and all the federal job training 
programs must be better aligned and coordinated.
    <bullet> We recognize that in undertaking efficiency improvement, 
Congress must also overcome differing committee jurisdictions if the 
goal is to be achieved. For example, while the Workforce Investment Act 
and the Wagner Peyser Act's Employment Service fall under the 
jurisdiction of the House Education and Workforce Committee, other 
major initiatives like Trade Adjustment Assistance Act (TAA) and 
Temporary Assistance to Needy Families (TANF) are under the purview of 
the Ways and Means Committee.
    Funding considerations-In terms of the $18 Billion dollars and 47 
separate programs, we would like to point out three facts:
    1. The time period of GAO's examination covered the implementation 
of the American Recovery and Reinvestment Act (ARRA), and the $18 
Billion GAO referenced was actually $12 Billion in a normal year. Make 
no mistake this is a significant investment, but using an amount 50% 
larger does distort today's discussion.
    2. Of the 47 programs GAO considered, they found that 7 of the 
programs received 77% of the federal investment. In reality, GAO 
considered WIA Adult, Dislocated Worker, and Youth programs as three of 
those seven. They are all WIA funds that run by formula through the 
country's Local Workforce Investment Boards. In our minds then, 5 
programs represent 77% of the funding.
    Another way to look at this is to say the other 40 programs 
represent only 23% of the total Federal funding, an average of less 
than 0.6% of the total Federal investment per program. So one of the 
great challenges is how to incorporate these small programs into an 
identifiable, coordinated, private sector-led local workforce system.
    3. GAO acknowledges that 77% of the total number of participants 
served in all the 47 programs is served by either The Employment 
Service or the Workforce Investment Act Adult program. While both of 
these programs served over 1 million individuals a year, 7 programs 
each reported serving less than 5,000 individuals. We think these 
smaller programs must be integrated into local workforce systems. We 
think this will save money and increase efficiency.
Performance
    The National Workforce Association believes that the taxpayer is 
entitled to know that all workforce development programs funded by the 
federal government have real performance that is widely displayed and 
readily available; and that achievement should be rewarded and failure 
should have real negative consequences.
    In addition we think that as WIA is reauthorized, or any of the 
other job training programs are reauthorized, a Return On Investment 
formula (ROI) should be included and required in each piece of 
legislation. We think this has to be a national ROI formula, otherwise 
it will be impossible to compare local ROI methodologies, no matter how 
well thought out they are.
    We believe that performance must be aligned. In order to do that 
there must be common definitions across programs, so that the same 
wording, like ``entered employment'' means the same thing to every 
program operator.
    The common measures should be required in all workforce programs 
unless their specific mission leads to other explicit legislated 
outcomes outside the common measures. Like most Americans we are 
puzzled that GAO found three programs had no performance at all.
    Of the 47 programs GAO examined only 31 had entered employment as a 
goal. While it is possible that a program might have a mission of 
enhancing a person's employability skills, we would argue that interim 
performance metrics should be set and rewarded so that the providers of 
that program are fully aware the ultimate goal is a job.
    We also believe that as Congress works to align programs into a 
coherent workforce system, there will be times where the goals of 
longstanding programs must yield to today's difficult fiscal realities.
    An example of this is the WIA Title II Adult Basic Education and 
Family Literacy program. The goals of this program today are threefold:
    1. Assist adults to become literate and obtain the knowledge and 
skills necessary for employment and self-sufficiency.
    2. Assist adults who are parents to obtain the educational skills 
necessary to become full partners in the educational development of 
their children.
    3. Assist adults in the completion of a secondary school education.
    While these are all worthy goals, we suggest that today's fiscal 
constraints necessitate narrowing the focus to just Goals 1 and 3 
(above). Title II is funded under a workforce development act, and we 
believe the goal should be to increase employability leading to a job 
and next a better job.
    Finally, by instilling rigorous performance throughout all Federal 
workforce development programs, we urge Congress to recognize that for 
jobseekers with significant barriers to employment only having short-
term goals is unlikely to produce the skilled workers our employers 
need to thrive.
    Staying with Adult Education and Literacy provides a good example 
of where today's performance is not correctly aligned with the largest 
federal workforce program, WIA Adult's one stop career centers, and 
employer needs. There should be an acknowledgment that in today's 21st 
Century economy success is measured not by today's two grade literacy 
improvement metric, but by rewarding interim achievement up to the 
ultimate literacy goal of mastering the literacy proficiency required 
by the local labor market.
    For example, today an Adult Education provider who's intervention 
helps a student move from a 2nd grade reading level to 4th grade level 
obtains a positive performance outcome. But the labor market does not 
reward a prospective employee with a 4th grade reading level with a 
job. NWA thinks the provider should receive credit for this outcome, 
but that that should be an incremental benchmark, and more work needs 
to still be done to move beyond 4th grade level.
    Leveraged training-The way that we currently count how many people 
a program gets into training is woefully insufficient to really judge 
how some of our major workforce development efforts are effectively 
operating. An example is how the nation's 3,000 One Stop Career Centers 
do placing jobseekers into training. That is what really happens, and 
what gets reported.
    What gets reported as entered into training is how many one stop 
customers are placed into WIA-funded training.
    What we don't measure or count is how many customers who come to 
One Stop centers looking for a job are also placed into training that 
is paid for by TANF, Vocational Rehabilitation, PELL grants at a 
community college, or in a registered apprenticeship. While individual 
workforce papers show this to be common and widespread, our official 
performance metric make it appear the one stop system is much less 
productive on the taxpayer's dime.
    Reporting systems-Obviously, in this fiscal climate the emphasis 
is-as it should be-on ways to do more with less; ways to save money, 
not spend more money. NWA would be remiss; however, if we did not take 
a minute to point out the terrible inefficiencies in today's 
computerized reporting systems.
    Imagine a citizen who desperately seeks employment. Because of 
prolonged unemployment they are now receiving public assistance through 
TANF. They also have low literacy levels and are getting help from the 
local Literacy Volunteers organization. Because they have a learning 
disability they are getting some assistance through a vocational 
rehabilitation agency. Finally, a counselor in the one stop career 
center has worked with this person on their resume, on job search 
techniques, and prepared them for employment interviews.
    As Congress authorized these four separate programs, to serve 
people who meet narrow eligibility criteria, each resulted in the 
creation of a separate reporting system. The people who worked with our 
hypothetical jobseeker need to enter the data into four separate 
reporting systems. So we find ourselves unable to get a complete 
picture of what the federal investment has done.
    In a time when Macy's or Wal-Mart can tell you the Saturday after 
Black Friday's busy shopping day what each store did in sales, and what 
the entire company did, we operate these programs with aging legacy 
computer systems that don't help the accountability discussion. Fixing 
this would require an initial increased investment but that would 
quickly generate savings, better information, and the means to measure 
performance.
    Real Time Labor Market Information-Software exists that can guide 
education, training, employment and reemployment efforts in almost real 
time in local areas and in the regions. Today it has not been widely 
adopted because of cost on an individual basis.
    Using the buying power of the Federal workforce development 
programs, Congress should explore obtaining and rolling out such 
systems. Near real time labor market information enables the quick 
development of needed training, and it would ensure we are training 
people for jobs that really exist. At the same time this helps our 
businesses get the workers with the skills they need to compete.
    The role of the private sector-The National Workforce Association 
believes that the vision of the Workforce Investment Act, that local 
Workforce Investment Boards should be private sector-led is the right 
one.
    Training programs that are set up in a vacuum from local and 
regional business needs cannot succeed. Yet many of the 47 federal 
programs in the GAO report do not have this private sector-led 
guidance; nor do they have business telling them what skills they 
really need.
    As Congress moves to align existing efforts, and require better 
coordination we hope that the role of the private sector-led Workforce 
Investment Boards will be enhanced. The current WIA legislation only 
gives these WIBs direct oversight over 3 of the 47 listed programs: WIA 
Adult, WIA Youth, and WIA Dislocated Worker.
    We believe that these boards should have a broader role of federal 
workforce development in their communities, and that their role as 
neutral conveners should be specifically addressed in legislation.
Conclusion
    The members of the National Workforce Association think that 
today's crisis is an opportunity to improve, to transform how we do 
business, and to innovate.
    We stand ready to work with Congress in any way you think we can 
help your efforts. Thank you again for the opportunity to provide this 
testimony.
                                 ______
                                 
    Chairwoman Foxx. It is now my pleasure to introduce our 
distinguished panel of witnesses.
    Dr. Andrew Sherrill is the Director for Education, 
Workforce and Income Security at the U.S. Government 
Accountability Office. His responsibilities include GAO's work 
on employment and training programs and worker protection 
issues. He was appointed to GAO's senior executive service in 
2009.
    Over his 20-year career at GAO, he has led teams in 
producing reports for the Congress on a broad range of topics, 
including workforce development, unemployment insurance, and 
Workers Compensation programs. Dr. Sherrill also led GAO's 
review of the use of Recovery Act funds for employment and 
training programs.
    Mr. Larry Temple is the Executive Director of the Texas 
Workforce Commission, a State agency that has oversight of the 
State's employment training, welfare reform, child care and 
unemployment insurance programs. TWC delivers these services to 
its 254 counties through a network of 29 local workforce 
development boards. Mr. Temple serves as a member of the 
State's P-16 Council, a member of the Texas Workforce 
Investment Council, and the chairman of the newly formed Texas 
Interagency Literacy Council.
    Ms. Evelyn Ganzglass is the director of Workforce 
Development at the Center for Law and Social Policy, and has 
extensive experience in workforce development policy, education 
economic development, and social service policy and programs.
    Prior to joining the Center for Law and Social Policy, she 
directed the Global Workforce in Transition Project at the 
Educational Development Center, Inc., a U.S. agency for 
International Development Global Initiative, to help developing 
and transitioning countries respond to changing economic needs. 
Before that, Mrs. Ganzglass worked for the National Governors 
Association for more than 20 years.
    Mr. Van Royal currently serves as the chairman of the First 
Coast Workforce Development Board of Directors. With partners, 
he is also the owner of Magnolia Point Realty, Inc., and K&V 
Investment Group, Inc. Mr. Royal has served on the First Coast 
Development Board since 1999 and chaired what is now the Youth 
Council from 2001 to 2006. He is a native of Alva, Florida, and 
graduated from Southern Methodist University with a Bachelor's 
of business administration.
    Now I would like to recognize the Ranking Member, Mr. Ruben 
Hinojosa, for his comments.
    Mr. Hinojosa. Thank you, Chairwoman Foxx. I have to 
apologize to you and the panel for being a little late, but 
there were some unexpected things that occurred that kept me 
from getting here. I am delighted to be able to participate 
this morning. I am pleased we are having a hearing on the 
critically important work of our nation's workforce and 
training programs. I would like to thank our distinguished 
panel of witnesses for joining us today.
    While our economy is moving in the right direction, in my 
congressional district and across our nation, millions of 
American workers continue to struggle to find good jobs and 
make ends meet. In order to thrive in today's workforce, 
American workers, particularly those adults and youth who are 
unemployed, dislocated, or disadvantaged, need education and 
training, counseling, guidance, and support to secure family-
sustaining jobs, achieve their educational goals, and improve 
their lives.
    In part, today's hearing will focus on recent reports 
released by the GAO on federal programs that provide some form 
of employment and training services. In these reports, GAO has 
recommended colocating and consolidating administrative 
structures to avoid duplicating services.
    In addition, the GAO recommended that the Secretaries of 
Labor and HHS work together to develop and disseminate 
information to encourage such efforts.
    While my colleagues in Congress on the other side of the 
aisle support the consolidation of administrative structures 
and funding streams and argue that any savings should be 
applied to the deficit, I believe that consolidation should be 
used to improve the quality and accessibility of employment and 
job training services.
    If the process of colocating or consolidating programs 
leads to a savings, I strongly believe that these resources 
should be reinvested into our public workforce and adult 
education system and be used to address the needs of those 
workers who are hardest to serve. Those who are jobless, 
desperately need our help to improve their lives.
    In the Rio Grande Valley of deep south Texas, we have 
waiting lists for adult education and employment and training 
services, and are unable to meet the needs of our most 
vulnerable workers and youth due to limited resources.
    As ranking member of the Subcommittee on Higher Ed and 
Workforce Training, reauthorizing and improving the Workforce 
Investment Act, better know known as WIA, and adequately 
funding our nation's public workforce and adult education 
system are top priorities for me. In my view, our public 
workforce and adult education system has been starved for far 
too long.
    It is my hope that we members of this committee can 
identify areas of common ground and work in a bipartisan manner 
to reauthorize WIA in this 112th Congress.
    In closing, I believe, as the members of this committee, we 
must address these issues in a comprehensive manner. It is not 
enough to simply highlight the inefficiencies without assessing 
the unmet needs of our most vulnerable workers and youth. In 
many parts of our nation, American workers need the federal 
government's assistance in acquiring the education, training, 
counseling and guidance to reenter the workforce. I look 
forward to working with the Secretary and my colleagues in both 
the House and the Senate to reauthorize and improve WIA.
    I thank you, Madam Chair.
    Chairwoman Foxx. Thank you, Mr. Hinojosa.
    [The statement of Mr. Hinojosa follows:]

  Prepared Statement of Hon. Ruben Hinojosa, Ranking Minority Member, 
        Subcommittee on Higher Education and Workforce Training

    Thank you Chairwoman Foxx.
    I am pleased that we are having a hearing on the critically 
important work of our nation's employment and workforce training 
programs. I would like to thank our distinguished panel of witnesses 
for joining us today.
    While our economy is moving in the right direction, in my 
congressional district and across our nation, millions of American 
workers continue to struggle to find good jobs and make ends meet.
    In order to thrive in today's workforce, American workers, 
particularly those adults and youth who are unemployed, dislocated, or 
disadvantaged, need education and training, counseling, guidance, and 
support to secure family-sustaining jobs, achieve their educational 
goals, and improve their lives.
    In part, today's hearing will focus on recent reports released by 
GAO on federal programs that provide some form of employment and 
training services. In these reports, GAO has recommended co-locating 
and consolidating administrative structures to avoid duplicating 
services.
    In addition, the GAO recommended that the Secretaries of Labor and 
HHS work together to develop and disseminate information to encourage 
such efforts.
    While my colleagues on the other side of the aisle support the 
consolidation of administrative structures and funding streams and 
argue that any savings should be applied to the deficit, I believe that 
consolidation should be used to improve the quality and accessibility 
of employment and job training services.
    If the process of co-locating or consolidating programs leads to a 
savings, I strongly believe that these resources should be reinvested 
into our public workforce and adult education system and be used to 
address the needs of those workers who are hardest to serve. Those who 
are jobless desperately need our help to improve their lives.
    In the Rio Grande Valley of South Texas, we have waiting lists for 
adult education and employment and training services and are unable to 
meet the needs of our most vulnerable workers and youth due to limited 
resources.
    As Ranking Member of the Subcommittee on Higher Education and 
Workforce Training, reauthorizing and improving the Workforce 
Investment Act (WIA) and adequately funding our nation's public 
workforce and adult education system are top priorities for me. In my 
view, our public workforce and adult education system has been starved 
for far too long.
    It is my hope that we, the members of this committee, can identify 
areas of common ground and work in a bipartisan manner to reauthorize 
WIA in the 112th Congress.
    Closing Statement
    In closing, I believe that we, as the members of this committee, 
must address these issues in a comprehensive manner. It's not enough to 
simply highlight the inefficiencies without assessing the unmet needs 
of our most vulnerable workers and youth. In many parts of our nation, 
American workers need the federal government's assistance in acquiring 
the education, training, and counseling and guidance to re-enter the 
workforce.
    We have an obligation to help them and put them on a path to good 
jobs, careers, a high school diploma, higher education and ultimately 
to a better life. Finally, jobs is the most important issue of today. 
We must not lose sight of this and continue to strengthen and 
adequately fund our nation's public workforce and adult education 
system.
    I look forward to working with the Secretary and my colleagues in 
both the House and the Senate to reauthorize and improve WIA.
    Thank you.
                      questions for the panelists
    1. Question for Larry Temple, Executive Director of the Texas 
Workforce Commission:
    Mr. Temple, in Ms. Ganzglass' testimony, she points out that Adult 
Education services reach about 2.4 million students out of a pool of 93 
million adults with low basic skills who may be eligible for and need 
these services to upgrade their skills. Those numbers are staggering. 
In my own area, I know that there is a need for these literacy 
services. How do you ensure in a consolidated system that individuals 
like those in need of Adult Education receive the services they need?
    2) Question for Mr. Temple, Executive Director, Texas Workforce 
Commission:
    Mr. Temple, when Texas consolidated the programs you discussed, can 
you tell me if state workers were laid off in that consolidation?
    3) Question for Andrew Sherrill, Director of Education, Workforce, 
and Income Security Issues, GAO:
    Mr. Sherrill, to be clear, GAO did not find any actual duplication 
in its analysis of federal job training programs.
                                 ______
                                 
    Chairwoman Foxx. Before I recognize each of you to provide 
your testimony, let me briefly explain our lighting system. You 
will each have 5 minutes to present your testimony. When you 
begin, the light in front of you will turn green. When 1 minute 
is left, the light will turn yellow. And when your time has 
expired, the light will turn red, at which point I will ask you 
to wrap up your remarks. After everyone has testified, members 
will each have 5 minutes to ask questions of the panel.
    I would now like to recognize Dr. Sherrill for 5 minutes.

     STATEMENT OF ANDREW SHERRILL, DIRECTOR FOR EDUCATION, 
WORKFORCE, AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Sherrill. Chairman Foxx, Ranking Member Hinojosa, and 
members of the subcommittee, thank you for inviting me here 
today to discuss the findings from our recent work on federal 
employment and training programs.
    GAO recently identified 47 federally funded employment and 
training programs for fiscal year 2009, administered by nine 
federal agencies which spent about $18 billion to provide 
services; 44 of the programs overlap with at least one other 
program, in that they provide at least one similar service to a 
similar population. However, differences may exist in 
eligibility, objectives, and service delivery.
    While almost all of the 47 programs track multiple outcome 
measures, little is known about program effectiveness. Since 
2004, only five programs reported conducting an impact study, 
and about half of the remaining programs have not had a 
performance review of any kind.
    My testimony today will focus on two areas where we 
identified opportunities to promote greater efficiencies, 
colocating services at the same physical location, and 
consolidating administrative structures. Under the Workforce 
Investment Act, 16 categories of programs must provide services 
through one-stop centers in local areas. Other programs, such 
as Temporary Assistance For Needy Families, are optional 
partners. Mandatory partners may either be colocated at one-
stops or offer services through electronic linkages or 
referrals.
    In our 2007 study, we found that a typical one-stop center 
in many States offered services for eight or nine required 
programs on site, and some States had more programs on site. 
While the WIA Adult and employment service programs were 
generally colocated in one-stop centers, TANF employment and 
training services were colocated to a lesser extent in 30 
States. Colocated services can result in improved communication 
among programs, improved delivery of services for clients, and 
elimination of duplication. While colocating services does not 
guarantee efficiency improvement, it affords a potential for 
sharing services and cross-training staff, and may lead to the 
consolidation of administrative systems such as IT.
    Although the potential benefits of colocation are 
recognized, implementation may pose challenges. For example, 
while WIA requires certain programs to provide services through 
the one-stop system, it does not provide additional funds to 
support one-stop infrastructure. Programs are expected to share 
the costs of developing and operating one-stop centers. 
Increasing colocation could also prove difficult for other 
reasons, such as limited available office space, proximity of 
one-stops to clients, and differences in programs' client-
service philosophies.
    The second area of opportunity for greater efficiencies is 
consolidating administrative structures. Three of the largest 
programs we examined--TANF, employment service, and WIA Adult--
maintain separate administrative structures to provide some of 
the same services to low-income individuals.
    However, Florida, Texas, and Utah have consolidated State 
workforce and welfare agencies that administer these three 
programs, among others. For example, Texas consolidated 28 
employment and training programs from 10 agencies into one 
agency. In Utah, the workforce agency administers the entire 
TANF program. In Florida and Texas, the workforce agencies 
administer only the part of TANF related to employment and 
training. Officials from these three States told us that 
consolidating agencies led to cost savings through the 
reduction of staff and facilities.
    For example, a Utah official said that the State reduced 
the number of buildings in which employment and training 
services were provided from 104 to 34. Texas privatized 3,000 
full-time staff equivalents at the local level, which reduced 
pension, retirement, and insurance costs previously associated 
with these State positions.
    Officials in the three States, however, could not provide a 
dollar figure for the cost savings that resulted. But they told 
us that the consolidation improved the quality of services. For 
example, an official in Utah noted that consolidation allowed 
employment counselors to cluster services that made sense for 
the client, and allowed clients to experience seamless service 
delivery.
    Even with the benefits identified by State officials, 
consolidation may have its challenges. An official in Utah 
noted that the reorganization was time-consuming and costly, 
and it took several years before any cost savings were 
realized. In addition, when States consolidate their agencies, 
they must still adhere to requirements that can differ by 
program, such as reporting requirements and program performance 
measures.
    In conclusion, to the extent is that colocation and 
consolidation would reduce administrative costs, funds could 
potentially be available to serve more clients, or for other 
purposes. While some States and localities have undertaken 
potentially promising initiatives to achieve greater 
administrative efficiencies, little information is available 
about the strategies, challenges, and results of these 
initiatives, so it is unclear the extent to which they could 
serve as models. Moreover, little is known about whether 
additional incentives may be needed. We recommended that the 
Secretaries of Labor and HHS work together to develop and 
disseminate information that could inform such efforts, and 
they agreed to do so.
    This concludes my prepared statement.
    I would be happy to answer any questions.
    Chairwoman Foxx. Thank you very much.
    [The statement of Mr. Sherrill may be accessed at the 
following Internet address:]

                http://www.gao.gov/new.items/d11645t.pdf

                                ------                                

    Chairwoman Foxx. I would now like to recognize Mr. Temple 
for 5 minutes.

STATEMENT OF LARRY TEMPLE, EXECUTIVE DIRECTOR, TEXAS WORKFORCE 
                           COMMISSION

    Mr. Temple. Thank you, Chairwoman Foxx and Ranking Member 
Hinojosa and distinguished members of the subcommittee. Thank 
you for allowing me to testify. I am honored to be before this 
subcommittee and excited about being able to share with you 
what we are doing in Texas.
    A little background, as Dr. Sherrill said--and by the way, 
three of the four of us went to college in Texas, and I think 
Ms. Ganzglass would have liked to.
    In 1995, the legislature created the Texas Workforce 
Commission. And as Dr. Sherrill said, we took 28 different 
programs dealing with work and supporting work and combined 
them into the one agency. As one of my commissioners said, we 
weren't given a lot of time. We had to build this airplane in 
the air. We had to deliver services, help workforce boards come 
up, and at the same time do all of the federal reporting and 
things that went along with that. We weren't given any extra 
money to do any of the IT or any of the new structure.
    It took a while. As was said in Utah, it takes a year or 18 
months for us to get to where we were. But of those programs, a 
lot of them saved us a lot of money in being able to 
consolidate because of the economies of scale. This was 
certainly important for us in the rural areas of the State, 
because a lot of the formula funding that we get, particularly 
from the Department of Labor, is based on population and what-
not, so those areas were losing a lot of funding in that 
formula, and these other programs that we were able to add 
helped mitigate those costs.
    The statewide activities that we are able to provide 
through the Workforce Investment Act and the flexibility of the 
TANF dollars have allowed us to do such things as curricula 
development for renewable energy, STEM academies for at-risk 
children, middle and high schools.
    We have got a program that is very innovative, very 
effective. It is the Texas Veterans Leadership Program, where 
we have men and women who have served in Afghanistan and Iraq 
who are providing peer-to-peer services, reemployment services 
to their brothers and sisters who are returning who can 
actually say, Yes, I know what you are going through because I 
went through it as well.
    These are all things we have been able to do with the 
statewide activity dollars through the Workforce Investment 
Act. As you are aware, the continuing resolution cuts those 
dollars; but it is not savings at the federal level, it merely 
moved it to the Department of Labor to the tune of $125 million 
to do innovative grants for States. We would submit that this 
is exactly the opposite of what we were hoping would come about 
in the cuts.
    We in Texas realize, and other States realize, that cuts 
are necessary and we will have to do our part, but we would 
like for the federal government to meet us in the middle and we 
believe more flexibility--as Dr. Sherrill pointed out, there 
are a lot of different plans and reports. These are just the 
State plans for the five major programs, and they are over 700 
pages. And that doesn't count the reports and annual reports 
and the weekly program directions that we get from the federal 
agencies. So the flexibility would be very helpful for us.
    I look at our system sort of like an ATM. When I landed at 
the airport last night, I needed cab fare, so I went to the 
ATM. And I really don't care what it takes for my money to come 
out from the Cattlemens Bank in Dripping Springs, Texas, just 
as long as it comes out the front. That is the way we look at 
it with our customers. They walk in the door, they shouldn't 
have to worry about what is happening behind the scenes to fund 
them.
    To the degree that we have been able to integrate our 
systems and consolidate these programs, that is our goal and 
that is the way we deliver services.
    That is not the case with us dealing at the federal level. 
I don't have to take one cab ride, I have to take about five. I 
have got four different agencies. Some of them have two 
different offices that I have to deal with. So it is not a one-
stop shop for us when we come to D.C.
    So consolidating these programs at the federal level would 
certainly take time; but at a minimum, in the meantime, if you 
could look at giving HHS or DOL or any of the other agencies 
waiver authority so that we are able to deal with just one 
entity and come up with some common delivery strategies.
    So I thank you. I would welcome your visits to Texas to 
visit one of our one-stops. We will host them in the valley, 
Congressman Hinojosa. Thank you very much.
    Chairwoman Foxx. Thank you, Mr. Temple.
    [The statement of Mr. Temple follows:]

        Prepared Statement of Larry Temple, Executive Director,
                       Texas Workforce Commission

    Thank you Chairwoman Foxx, Ranking Member Hinojosa and 
distinguished members of the subcommittee for allowing me to submit 
this written testimony. I am honored to testify before the subcommittee 
today.
    Let me give you a little background on how the Texas Workforce 
Commission and our service delivery model works in Texas. The Texas 
Legislature, in 1995, enacted comprehensive workforce and welfare 
reforms that envisioned a workforce system that was locally 
controlled--like local school boards--to respond to local needs. The 
law established a new agency, the Texas Workforce Commission (TWC), 
merging 28 workforce development programs from 10 agencies. TWC was 
charged with creating an integrated service delivery system under the 
control of local workforce boards that plan, oversee, and evaluate 
workforce education and training services for their area of the state.
    The integrated service delivery system in place includes 28 local 
workforce boards and 240 one-stop centers covering 254 counties. The 28 
Boards build strong bonds between business, education, and job training 
resulting in a strengthened economy to benefit everyone. The Boards 
partner with community colleges, community based organizations, 
economic development and education providers, as well as the local 
chambers of commerce. Local flexibility with state oversight is the 
Texas model, and it continues to serve Texans best.
    Texas continues to offer exceptional services throughout the state 
given limited financial resources. With unemployment at an all-time 
high, we have served more customers (both job seekers and employers) 
with less funding than in years past. Texas has a demand driven system. 
We prioritize and coordinate training dollars to what employers tell us 
their needs are (both present and future). We have identified six 
industry clusters that represent the most return for our investment. 
The six industry clusters include, advanced technologies and 
manufacturing, aerospace and defense, biotechnology and life sciences, 
information and computer technology, petroleum refining and chemical 
products, and energy. At the state level through the use of Workforce 
Investment Act (WIA) state set aside funds, we provide funding for the 
development of training curriculum for wind, solar and nuclear energy 
as well as biotech and advanced manufacturing. We also support STEM 
Academies for middle and high school students with these funds.
    Another very innovative and important initiative we fund with these 
dollars is our Texas Veterans Leadership Program. This statewide 
initiative provides peer to peer employment services to our warriors 
returning from Iraq and Afghanistan. These young men and women are 
outreached by someone that truly understands their challenges because 
they too have been there. These are but a few of the innovative 
initiatives being created by states utilizing these funds. Initiatives 
that truly prove that states are the nation's labs of innovation.
    However, through the Continuing Appropriations Act of 2011, 
Washington has again decided what is best for states. As you know, the 
Continuing Appropriations Act made cuts to WIA, but most significant 
were cuts to the WIA Statewide Activity Fund. I believe an unintended 
consequence of the CR was that it took funding from states instead of 
creating budget savings. In fact, surprisingly, it created another 
level of bureaucracy at the federal level by creating a $125 million 
discretionary ``Workforce Innovation Fund'' for the Secretary of Labor 
and all at the cost of services provided to job seekers and employers 
by states. In addition, the President's 2012 budget proposal includes a 
provision to not only continue this discretionary fund, but to increase 
it to $300 million for a total of $425 million in new discretionary 
funding at the federal level. Now states will have to once again do the 
``mother may I'' routine with Washington to obtain funding for their 
own ideas that heretofore were funded at the state level.
    We understand at the state level that cuts are necessary and Texas 
is willing to do our part, but we also need the federal government to 
meet us in the middle. To mitigate the funding cuts and maximize 
services, we ask that states be given the greatest amount of 
flexibility in the use of federal dollars. Diverting dollars away from 
states and creating another level of federal bureaucracy such as the 
Workforce Innovation Fund is not our idea of flexibility.
    Right now, we have a great opportunity before us to make sweeping 
changes to the system, not only within the area of providing states 
flexibility but also in the manner with which states and the federal 
government interact. For example, the GAO's report highlighted Florida, 
Utah, and Texas as the best practices of an integrated service model to 
serve customers at one stops. What makes our model stand out is not 
only the integration of services, but also that our customers have one 
place to go for assistance, instead of a disjointed system that is 
difficult to navigate.
    Such is not the case for states at the federal level. Instead, 
Texas' 5 big programs--Temporary Assistance for Needy Families, Wagner-
Peyser Employment Services, Supplemental Nutrition Assistance Program, 
Workforce Investment Act, and Child Care and Development Funds--are 
administered by different federal agencies with each requiring separate 
state plans, annual reports, monitoring, audits and reporting. The 
duplication and overlap of all this paperwork costs taxpayers millions 
of dollars every year. These are dollars that could be much better 
spent providing employment and training to those in need of these 
services. I have with me today examples of the different federal 
reports required for each one of these programs which as you can see, 
is quite a handful. For example, the WIA state plan is over 150 pages, 
but collectively we are producing almost 700 pages of state plans for 
the above mentioned programs. Finally, this multiple agency maze likely 
serves the same population.
    Let me share with you an example that I often use in describing the 
larger point at hand. I call it the ATM example. For example, when I 
landed last night I needed cash for the taxi. From a customer's 
perspective, I don't know what all happens behind the scenes to get my 
money from the Cattlemen's Bank in Dripping Springs, Texas to this ATM 
in the DC airport. When we have a customer come into our one-stop they 
do not need to, nor do they have to know what happens behind the scenes 
for us to serve them. We are looking for this same efficiency and 
flexibility from the federal government. And by the way, my taxi ride 
is really a series of rides because I have to go to three different 
federal agencies and four different office locations. Not exactly a 
one-stop experience for states.
    As I stated before, in 1995, we moved all state workforce programs 
under the jurisdiction of TWC. We were able to co-locate these federal 
programs dealing with workforce, but because of federal regulations, 
consolidation was limited. In the short term, consolidating federal 
workforce programs might not be possible. However, an alternative we 
would like to see is a waiver process where states can deal with just 
one federal agency that has authority over workforce programs. This 
would allow states to be more efficient and more productive which is 
even more important in light of budget cuts.
    My final point is that we need to move to an outcome driven system 
rather than a process driven system. We need to look closely at what 
works and what does not. We understand accountability and we understand 
that while the process is important--from the customer's perspective, 
what is achieved at the end of the day is what constitutes the measure 
of your work. Far too often these federal programs are measured by the 
process, not the outcome.
    As a result of our consolidation, this successful model has allowed 
Texas to serve more people with less money and is far more convenient 
for our customers, both job seekers and employers. We welcome your 
interest in making the system more customer-friendly and stand ready to 
assist you in any manner you deem necessary. Thank you for allowing me 
the opportunity to submit this testimony. We welcome you to come to 
Texas to see first-hand our model as well as tour our one-stops.
                                 ______
                                 
    Chairwoman Foxx. You just brought up an irony I hadn't 
thought about before. The federal government told those of you 
at the local level to create one-stops, and the federal 
government just ignores that advice for itself.
    Thank you very much.
    Ms. Ganzglass, I recognize you for 5 minutes.

STATEMENT OF EVELYN GANZGLASS, DIRECTOR, WORKFORCE DEVELOPMENT, 
             CENTER FOR LAW AND SOCIAL POLICY, INC.

    Ms. Ganzglass. Good morning, Chairwoman Foxx, Ranking 
Member Hinojosa, and members of the subcommittee. I, too, want 
to thank you for the opportunity to testify this morning.
    First, I want to comment on the effectiveness of WIA and 
other federally funded workforce programs. Even though the 
results of experimental evaluations of WIA are not yet 
available, several rigorous, quasi-experimental evaluations 
conducted since the year 2000 have demonstrated the value of 
training and workforce services, especially for disadvantaged 
individuals, and we have provided a summary of that evidence in 
the written testimony.
    Second, in our view, overlap is not synonymous with 
duplication. We believe that one size does not fit all, and 
that it is beneficial to have specialized expertise and 
capacity that can be brought to bear from multiple systems to 
provide the appropriate mix of services needed to address the 
unique needs of different employers and populations.
    Many of the 47 or 49 programs identified by the GAO, 
already administered through the public workforce system and 
others, are accessible through the one-stop career centers. 
Numerous States such as Florida and Texas have used different 
approaches to make federally funded programs work together in 
nonduplicative and mutually reinforcing ways. However, 
variations in the breadth and nature of collaborations 
nationwide suggest the federal government cannot mandate 
meaningful collaboration if the leadership and will do not 
exist at the State and local levels. Moreover, the fixed 
infrastructure cost of physical colocation in one-stop centers 
has created its own rigidities in the system.
    For these reasons, we recommend that rather than 
consolidating in a hands-off manner, as some have suggested, 
Congress should take the following actions to promote a more 
coherent and better utilization of resources.
    Congress should align program goals and provide incentives 
across programs to encourage and nurture stronger connections 
between WIA and other programs to create multiple pathways to 
postsecondary and career success for low-income adults, 
dislocated workers and disadvantaged youth.
    We recommend that Congress develop compatible performance 
expectations and associated administrative requirements across 
programs; or at least, through waivers, allow unified State and 
local systems to operate under one set of performance 
standards. Performance standards and related requirements have 
proven to be major barriers to greater integration of efforts. 
The most blatant example of such incompatible requirements are 
different performance expectations and rules under which the 
workforce and welfare-to-work systems operate.
    We urge Congress to reduce the number of duplicative 
reporting and accounting systems. This should be done by 
agreeing on consistent definitions of units of service, 
standards of data quality, and commonly agreed-upon cost 
allocation methods of services funded through multiple sources.
    Further, Congress should streamline and reduce the 
paperwork burden associated with eligibility determination and 
verification processes. According to a 2002 GAO survey of State 
and local workforce boards, documenting eligibility has been 
difficult to accomplish and resource-intensive. We urge 
Congress to allow cross-system eligibility determination for 
young people and families who have been determined eligible for 
other means-tested programs that require families to be low 
income.
    Congress should focus on obligations rather than 
expenditures in assessing fund availability. GAO has 
consistently found that States are spending WIA funds within 
authorized time frames, and has strongly stated that 
obligations are a more useful measure than expenditures in 
assessing WIA funding status. The amount of unexpended funds 
may not reflect what States and localities actually have on 
hand, because some portion of those funds may be tied up in 
obligations for things such as long-term training, which, as we 
know, is successful.
    Finally, I would like to say that the system efficiency 
could be enhanced by providing more consistent funding to 
encourage States and local areas to plan wisely and well. The 
recent history of funding the system in dribs and drabs incurs 
its own administrative costs and inefficiencies, and it also 
impairs the system's ability to manage at a time of heightened 
demand for services.
    Thank you again for allowing me to testify, and I would be 
happy to answer any questions.
    Chairwoman Foxx. Thank you very much.
    [The statement of Ms. Ganzglass follows:]

           Prepared Statement of Evelyn Ganzglass, Director,
         Workforce Development Center for Law and Social Policy

    Good morning Chairwoman Foxx, Ranking Member Hinojosa and Members 
of the Subcommittee. I appreciate the opportunity to testify about 
improving the efficiency and effectiveness of the nation's workforce 
system. CLASP is a nonprofit organization that develops and advocates 
for policies at the federal, state and local levels that improve the 
lives of low-income people.
    In a recent report, the Government Accountability Office (GAO) 
examined fragmentation, overlap and potential duplication in federally 
funded workforce programs. We believe that Congress should take steps 
to create a more coherent and effective workforce system. My testimony 
will focus on three points:
    1. As the subcommittee considers reforms and possible improvements, 
it is important not to overlook the critical role that the nation's 
workforce programs have played during the recession and will play as 
the economy recovers.
    2. Program overlap is not synonymous with program duplication.
    3. There are actions that Congress can take to encourage greater 
program alignment and increase the effectiveness of workforce programs.

1. The contribution of federally funded workforce programs
    First, it is important to acknowledge the valuable contributions of 
the Workforce Investment Act (WIA) and other federally funded workforce 
programs described in the recent GAO report. At a time when nearly 14 
million Americans are unemployed, workforce programs are helping those 
out of work and the underemployed find jobs, prepare for jobs and build 
skills for the future. These programs also are helping employers find 
qualified workers as the nation recovers from the worst recession since 
the end of World War II.
    The programs authorized by WIA, though created during an economic 
boom, have responded strongly and effectively during the recent 
economic downturn. When the Great Recession struck, state and local 
administrators responded with energy and tremendous spirit as the 
workforce system responded to rising unemployment and economic 
hardship. A summer youth employment program was implemented rapidly in 
2009, ultimately reaching more than 355,000 disadvantaged youth. More 
than 8 million individuals received services provided by WIA during 
2009 and more than 4.3 million found jobs in a difficult labor market. 
In 2008-2009, about two-thirds of adults and three-quarters of 
dislocated workers who participated in training found jobs after 
exiting the program, according to outcome measures tracked by the U.S. 
Department of Labor.
    Although the recent GAO report states that ``little is known about 
the effectiveness'' of workforce programs, there is in fact growing 
evidence that workforce programs are a good investment, especially for 
disadvantaged individuals. Unlike federal performance accountability 
systems that focus on outcomes, impact studies are designed to 
determine whether the outcomes of a program or set of services are a 
direct result of the intervention. As the GAO has reported, the results 
of an experimental evaluation of WIA are not yet available; however, 
several rigorous, quasi-experimental evaluations conducted since 2000 
have demonstrated the value of training and workforce services. For 
example, a 2011 evaluation of Washington State workforce programs 
revealed that WIA services boost employment and earnings for adults, 
dislocated workers and youth. A U.S. Department of Labor evaluation of 
Youth Opportunity Grants, an important component of the WIA 
legislation, found that these grants increased the employment rate 
among blacks, teens, out-of-school youth, and native-born youths; 
increased receipt of Pell Grants; and had a positive effect on the 
hourly wages of women and teens.
    Most evaluations tend to average out results from a wide range of 
local approaches and consequently mask the success of promising 
workforce strategies that are increasingly being used in the field and 
are gaining wider recognition by the policy community. Some of the most 
promising advances are the use of sector-focused workforce strategies 
to meet the needs of employers and low-income, low-skilled individuals 
and integrated education and training strategies that blend basic 
skills instruction with occupational skills preparation. For example, 
an experimental study of three sector-focused training programs found 
positive impacts for low-income, disadvantaged workers and job seekers. 
Participants in sector-based training programs earned 18 percent--about 
$4,500--more than control group members during the two years of the 
study.\1\
    Most evaluations also tend to focus on a limited range of outcome 
measures, especially employment and earnings gains for individual 
participants. Yet, workforce programs are likely to generate a broader 
set of benefits to individuals and society. For example, a growing body 
of research suggests that investments in the adult workforce are likely 
to pay off for the next generation: when mothers with a high school 
education or less complete additional education and training, their 
children have improved language and reading skills.\2\ As Christopher 
T. King and Carolyn J. Heinrich write in a review of recent research, 
``workforce investments produce widespread benefits for employers and 
society as a whole. Returns are particularly remarkable given the 
magnitude and intensity of workforce investments relative to the size 
and complexity of the barriers they address.'' \3\ (See Appendix for a 
full summary of research findings)

2. Program overlap is not synonymous with program duplication
    The premise of some of the recent criticisms of employment and 
training programs, drawing on findings of a recent GAO report, is that 
there is unwarranted duplication of federally supported employment and 
training programs and that reducing this duplication or consolidating 
programs will increase the efficiency with which these services are 
delivered.
    In our view, duplication of effort is not a major problem in the 
workforce development arena and we believe that consolidation will not 
result in more efficient or effective utilization of resources. Overlap 
is not the same as duplication. In fact, we believe that one size does 
not fit all and that it is beneficial to have a number of delivery 
systems with specialized expertise and capacity that can be drawn upon 
to provide the appropriate mix of high- and low-intensity, specialized 
and more general services to address the unique needs of different 
populations seeking to enter and advance in the labor market. Program 
duplication is not a major issue for the following reasons:
    <bullet> GAO acknowledged that even when the 47 employment and 
training programs they identified do overlap, the services they provide 
and the populations they serve may differ in meaningful ways.\4\ The 
programs identified do, in fact, differ along these dimensions. For 
example, the three largest programs (WIA, Temporary Assistance for 
Needy Families (TANF) and Employment Service) provide services to 
different segments of the population with different levels of intensity 
of service.\5\ The Employment Service provides job search assistance 
and job matching to all job seekers, typically through online access or 
self-service resources. WIA provides three levels of services, 
including intensive career navigation services such as skills 
assessment and matching, counseling, and job search and training 
services for individuals in need of individualized assistance with 
employment and skill development. Local areas have considerable 
discretion in whom to serve and how. TANF services vary widely by state 
and can include job readiness, job search assistance, training and 
community service or subsidized employment programs. Some of the 
programs, such as the Trade Adjustment Assistance (TAA) program, were 
created out of political necessity to compensate a subset of dislocated 
workers who are negatively impacted by U.S. trade policy with a richer 
set of services than can be provided to other job seekers at current 
funding levels. We would welcome resources to extend the types of such 
services provided through TAA to a broader population. Still other 
programs are small discretionary grant programs that provide one-time 
grants for special purposes to states or local areas on a competitive 
basis.
    <bullet> Specialization is necessary and desirable to effectively 
serve populations with different needs. Congress created targeted 
programs to ensure that appropriate strategies are being used to 
address the unique needs of certain populations such as veterans and 
individuals with disabilities, who often require highly specialized 
services and equipment that cannot easily be provided through general 
services. Adult education programs are equipped to serve people with 
limited English proficiency and low levels of literacy. Other programs 
are designed to serve the unique circumstances of groups such as Native 
Americans and farm workers.
    <bullet> Programs are significantly underfunded, rarely serve the 
same people and together serve only a small fraction of individuals and 
families in need of or eligible for services. Despite the fact that 
some postsecondary education is increasingly needed to access 
employment that pay family-sustaining wages, fifteen percent of U.S. 
adults lack a high school diploma or GED, and another 30 percent have 
only a high school diploma or its equivalent. Only a fraction of the 
individuals with low basic skills or inadequate occupational skills 
have access to education and training services. Adult Education 
services reach about 2.4 million students among a pool of an estimated 
93 million adults with low basic skills who may be eligible for and 
need these services to upgrade their skills. The demand for adult 
education services is growing nationwide, with waiting lists in at 
least 49 states. Both the numbers of students and the waiting times 
have doubled since 2008; in states with extremely high demand--Arizona, 
Texas, and New York, for example--students can wait for one year or 
longer for services.\6\ States report that some 160,000 people seeking 
services cannot be served.\7\ In addition, a recent survey of local 
workforce areas in Illinois found that a number of WIBs have 
implemented waiting lists at program intake and for training services 
because of limited funding.
    <bullet> Many of the programs included in the GAO list are, in 
fact, administered through the public workforce system. Of the 47 
programs identified by the GAO, just 3 programs--WIA's Adult and 
Dislocated Worker programs and Wagner Peyser programs account for 
nearly 80 percent of the 24 million people served by the federal 
workforce development system.\8\ These services are generally 
accessible through WIA one-stops; and together with the WIA Youth 
program and TAA they are administered and delivered through a unified 
system in many states.
    <bullet> States and local communities have used different 
approaches to make federally funded programs work together in non-
duplicative ways. Looking specifically at connections between WIA and 
TANF, which GAO found to be the fourth largest source of funding for 
employment and training services in FY 2009, we find that at one end of 
the coordination continuum is Utah, where the programs are fully 
integrated into a seamless system that uses funding from WIA, from TANF 
and from the SNAP Employment and Training program to provide the same 
set of services to the extent allowable within funding streams to 
eligible populations. TANF participation rates and WIA performance 
standards apply to people served with these funding streams. The same 
staff work with customers funded under all three programs, with their 
time allocated to the appropriate programs depending upon whom they 
actually serve. This approach allows the state to serve more workers 
with employment and training services than they would with just WIA 
funds.\9\ Although it minimizes administrative and overhead costs, it 
is not a low-cost approach.
    In the middle of the continuum are the many areas where the TANF 
agency contracts with the Workforce Investment Board (WIB) to provide 
some or all workforce services to TANF cash assistance recipients, but 
they are served through specialized programs limited only to TANF 
recipients, rather than through the programs offered to other job 
seekers. For example, the state of Missouri requires that all 
employment-related services for TANF cash assistance recipients be 
housed within the Division of Workforce Development. However, in 
practice, most of the local WIBs subcontract with community-based 
organizations, such as Goodwill, whom they believe to have more 
experience in serving low-income populations, to provide the services 
to TANF recipients. These contracts can also provide for more 
individualized and in-depth case management than the workforce agency 
can offer most clients.\10\ And at the other end are areas where there 
is little or no coordination between TANF and WIA agencies.
    Many TANF and WIA agencies collaborated in recent years to provide 
subsidized employment programs for low-income youth and parents using 
the additional funding provided under the American Recovery and 
Reinvestment Act (ARRA). In addition, New York State combined 
discretionary ARRA funds with TANF funds to expand a career pathways 
initiative targeted at public assistance recipients, TANF-eligible 
young adults ages 18 to 24 and low-income adults who qualify for WIA 
services.\11\ While this funding is now gone, many program 
administrators indicate that this experience has reinvigorated the 
relationships between the organizations and led to new interest in 
partnering.\12\
    It is important to note that we do not have evidence about whether 
TANF recipients are connected to the workforce sooner, or obtain better 
jobs, through services provided through the WIA system than through 
stand-alone programs. During the early 2000s, both CLASP and the 
Department of Health and Human Services undertook studies of WIA-TANF 
integration, and both concluded that there was little basis on which to 
claim that one model was superior.\13\
    In particular, there is reasonable basis to be concerned that 
individuals with significant or multiple barriers to employment may not 
be well served in a system that has a universal service mandate, and 
that is charged with providing employers with a ready-to-work 
workforce. For this reason, CLASP does not believe that TANF should be 
made a mandatory partner in the WIA one-stop system unless substantial 
changes are made to WIA as part of that program's reauthorization to 
ensure that TANF recipients are well served. While an integrated 
approach is working well in some areas, we do not think that mandating 
a partnership between unwilling agencies is likely to produce optimum 
results.\14\
    Therefore, rather than focusing on reducing duplication to 
possibly--but not certainly--reduce administrative costs, we believe 
that Congress should take steps to reduce unnecessary incompatibilities 
among existing programs to make it easier for states and local areas to 
coordinate the use of multiple funding streams to improve services for 
both workers and employers. Such improvements would allow workforce 
programs to make the best use of the very limited funds Congress has 
chosen to devote to these programs.

3. Toward a more coherent and effective workforce system
    Consolidation and use of vouchers for training services are two 
strategies that are typically offered to address perceived program 
duplication.
    In our view simple consolidation is not the answer. Experience has 
shown that block granting multiple funding streams is not an effective 
strategy for achieving either greater efficiency or effectiveness in 
service delivery. Because of the flexible nature of block grants, it is 
often difficult to report clearly regarding who is being served, how 
and to what result. This makes oversight difficult, and leaves block 
grants with uncertain support.
    Moreover, maintenance of effort requirements have a poor track 
record. In practice, states often have the ability to substitute block 
grant funds for existing state investments, reducing the total amount 
of funding available and shifting costs from states to the federal 
government.
    High-need groups such as individuals with disabilities, veterans, 
and workers with multiple barriers to employment are likely to be ill-
served under block grants, as they are more expensive to serve, and are 
likely to have weaker results under outcome-based performance measures.
    Margy Waller, while at The Brookings Foundation\15\ found that 
state-wide programs tend to benefit whereas local communities tend to 
lose resources when programs are block granted.
    Nor is voucherizing programs. While an increased investment in 
training is needed, exclusive reliance on vouchers for providing access 
to training is not warranted. The research evidence on the 
effectiveness of using vouchers with disadvantaged adults has been 
negative, and evidence on effectiveness with dislocated workers has 
been mixed. The sole reliance on vouchers would deprive the workforce 
investment system of two important training tools to increase the self 
sufficiency of individuals and the economic development of communities:
    <bullet> customized training that supports local economic 
development and ties training directly to employment, resulting in job 
placement for trainees; and
    <bullet> contract training that allows local areas to purchase 
cohort and other training tailored to the needs of hard-to-serve 
customers.\16\
    The current use of Individual Training Accounts under WIA 
unnecessarily discourages the use of contract training, which can be an 
effective way to design programs that are tailored to the needs of low-
skilled individuals, such as bridge programs, which prepare adults with 
low basic skills to enter postsecondary education and training 
programs. The use of contracts can also facilitate the provision of 
training to groups or cohorts of lower skilled adults with similar 
needs, which can provide important peer support to participants.
    It is our contention that rather than a single consolidated 
program, we need a more coherent system that brings together diverse 
services, service providers and resources to provide appropriate and 
effective services to address the diverse needs of different 
populations.
    CLASP recommends that the following actions be taken to promote 
greater alignment of resources and effectiveness:
    <bullet> Streamline and reduce the paperwork burden associated with 
the eligibility determination and verification processes. According to 
a 2002 U.S. Government Accountability Office (GAO) survey of state and 
local workforce boards, documenting eligibility has been ``difficult to 
accomplish and resource-intensive.'' \17\ We recommend that Congress 
allow cross system eligibility for young people and families who have 
been determined eligible for other means-tested federal programs that 
require families or individuals to be low-income. For example, Congress 
should allow students who are determined eligible for free or reduced 
lunch under the National School Lunch Program to be automatically 
determined income eligible WIA youth services. This was the policy 
under the Job Training Partnership Act (JTPA). Congress should allow 
local workforce areas to include youth that live in a high-poverty area 
or who live in a school district with high percentages of free and 
reduced lunch when it is not possible to identify individuals enrolled 
in the free or reduced lunch program due to privacy concerns. In 
addition Congress should be eligible for WIA services without regard to 
income if youth are out of school and have not received a high school 
diploma or fall into any of the specified target groups such as youth 
in foster care, youth in the juvenile justice system, youth with 
disabilities, homeless and runaway youth, and young parents. Also, 
Congress should clarify that self-certification methods, such as 
sampling and other methods that reduce the documentation burden, are 
acceptable alternatives to individual documentation.
    <bullet> Reduce the need for duplicative reporting and accounting 
systems. This should be done by agreeing on consistent definitions of 
units of service, standards of data quality, and commonly agreed upon 
accurate and unbiased cost-allocation methods for services funded by 
multiple sources for use across federal workforce education and 
training programs.
    <bullet> Align performance expectations across programs. 
Incompatible performance accountability requirements across programs 
serve as a barrier to greater integration of efforts. The most blatant 
examples of incompatible performance expectations and associated 
administrative requirements are the ones under which the workforce and 
welfare systems operate. WIA's primary performance measures are outcome 
measures focusing on employment and earnings. In contrast, TANF's 
primary performance measure is the work participation rate, which is a 
process measure. Particularly in the wake of the changes made by the 
Deficit Reduction Act of 2005, states must track and verify every 
reported hour of participation. Workforce agencies consistently report 
that this is a significant barrier to serving TANF recipients in 
programs that are not solely dedicated to this population. The WIA 
performance expectations have discouraged many local areas from serving 
individuals who are perceived as having greater barriers to employment. 
It is worth noting that even states with highly integrated systems, 
such as Utah and Florida, rarely cross-enroll TANF recipients in WIA 
programs.
    The federal government should ensure that the WIA performance 
measures make sufficient adjustment for individuals who are more 
difficult to place in higher paying jobs. States that are ready to 
adopt fully integrated models should be allowed to substitute the WIA 
outcome-based performance measures for the TANF work participation rate 
accountability measure. In addition, in order to encourage 
coordination, states should be able to deem TANF cash assistance 
recipients who are participating in WIA intensive and training services 
as fully engaged for the purpose of the TANF work participation rates.
    We also recommend that over time the federal government develop and 
implement a system of shared accountability across workforce and other 
education and training programs.
    <bullet> Align WIA with other education, training and work support 
programs to create multiple pathways to postsecondary and career 
success for low-income adults, dislocated workers and disadvantaged 
youth. Each step in a career pathway is designed to prepare students 
for the next level of employment and education and to meet employer 
demand for skilled workers. Ideally, pathways begin with short, 
intensive remedial ``bridge'' and ``pre-bridge'' programs for those at 
the lowest literacy and English language levels and extend through two-
year and four-year college degrees. Connecting these services can 
accelerate learning, and help people attain necessary credentials as 
well as advance over time to successively higher levels of education 
and employment in a given industry or occupational sector. This will 
promote long-term, inclusive economic growth by helping workers gain 
the skills and connections they need to access family-sustaining 
employment and by ensuring that employers have access to the skilled 
workers they need to retain and create good jobs. In particular, to 
better meet the needs of limited English proficient individuals and 
individuals with lower levels of education, Congress should encourage 
stronger connections between the workforce development and adult 
education systems, and provide additional flexibility within the 
workforce system to provide the basic skills and English language 
training services that are necessary for success in the labor market.
    <bullet> Focus on obligations rather than expenditures in assessing 
fund availability. GAO has consistently found that states are spending 
WIA funds within authorized time frames and has strongly stated that 
obligations are a more useful measure than expenditures for assessing 
WIA funding status.\18\ The amount of ``unexpended funds'' may not 
reflect what states and localities actually have on hand because some 
portion may be tied up in obligations. The relentless focus on 
expenditures rather than obligations also discourages use of long-term 
training or long-term engagement of individuals in services that will 
help them advance in the labor market.
    <bullet> Finally, system efficiency could be enhanced by providing 
more consistent funding to encourage states and local areas to plan 
wisely and well. The recent history of funding the system in dribs and 
drabs incurs its own administrative costs and inefficiencies. It also 
impairs the system's ability to plan at a time of heightened demand for 
services.
  appendix: summary of research on workforce program effectiveness\19\
    Federal investments in workforce development help low-income adults 
and youth find jobs, improve their earnings and contribute to their 
communities. Although the results of an experimental evaluation of the 
Workforce Investment Act (WIA) are not yet available, several rigorous, 
quasi-experimental evaluations conducted since 2000 have demonstrated 
the value of training and workforce services, especially for 
disadvantaged individuals.
    <bullet> A 2005 study found that Workforce Investment Act (WIA) 
services in seven states generate employment and earnings gains for 
adults and dislocated workers. Individuals receiving WIA services are 
more likely to be employed (by about 10 percentage points) and to have 
higher earnings (by about $800 per quarter in 2000 dollars) than those 
who have not received services. In addition, participants in WIA 
programs are less likely than non-participants to receive public 
assistance. The authors conclude that ``WIA services, including 
training, are effective interventions for adults and dislocated 
workers, when measured in terms of net impacts on employment, earnings, 
and receipt of public assistance for participants.'' \20\
    <bullet> A 2008 report found positive outcomes for WIA Adult 
participants in 12 states, concluding that there are ``large and 
immediate impacts on earnings and employment for individuals who 
participate in the WIA Adult program * * * Those who obtained training 
services have lower initial returns, but they catch up to others within 
ten quarters, ultimately registering total gains of $800 for females 
and $500 to 600 for males.'' Despite substantial variation in program 
structure and implementation across the 12 states, ``overall net 
impacts were estimated to be positive in almost all states.'' \21\
    <bullet> A 2008 evaluation of the Youth Opportunity Grant program 
found positive results, noting increased educational attainment, Pell 
Grant receipt, labor market participation, and employment rates and 
earnings for more than 90,000 program participants. The study found 
that the program increased overall labor-force participation rates, 
specifically for teens ages 16 to 19, women, native-born residents, 
blacks, and in-school youth. It also increased employment rates among 
blacks, teens, out-of-school youth, and native-born youths, and it 
positively impacted the hourly wages of women and teens.\22\
    <bullet> A 2011 evaluation of Washington State workforce programs--
one of only a few net impact evaluations conducted by a state--revealed 
that WIA services boost employment and earnings for adults, dislocated 
workers and youth. Adults and youth receiving WIA services have higher 
employment rates and higher earnings than non-participants three 
quarters following participation. Dislocated workers receiving WIA 
services are more likely to be employed than non-participants three 
quarters following participation.\23\
    The national studies tend to average out results from a wide range 
of local approaches and consequently mask the success of promising 
workforce strategies that are increasingly being used in the field and 
are gaining wider recognition by the policy community.\24\ Some of the 
most promising advances are the use of sector-focused workforce 
strategies to meet the needs of employers and low-income, low-skilled 
individuals and integrated education and training strategies that blend 
basic skills instruction with occupational skills preparation.
    <bullet> An experimental study of three sector-focused training 
programs found positive impacts for low-income, disadvantaged workers 
and job seekers. Participants in sector-based training programs earned 
18 percent--about $4,500--more than control group members during the 
two years of the study. Participants also were more likely to work, 
work in jobs with higher wages and hold jobs that offer benefits (such 
as health insurance). Sector-focused programs usually target rapidly 
growing jobs that require limited postsecondary education but pay wages 
at or near the median wage in the economy and that involve intermediary 
organizations that bring together training providers, employers and 
workers.\25\
    <bullet> Sector-focused workforce programs are beginning to 
identify the benefits that flow to participating employers or an entire 
industry. These outcomes include improvements to a business's ability 
to find and retain qualified workers, increases in productivity and 
increases in the skills of existing workers. For example, a hospital 
participating in a healthcare initiative documented $40,000 in savings 
as a result of lower turnover and reduced hiring costs.\26\
    <bullet> A quasi-experimental evaluation of Capital IDEA, a sector-
focused training program in Austin, Texas found substantial employment, 
earnings, and Unemployment Insurance-related impacts relative to a 
comparison group receiving low-intensity one-stop center services. 
Participants trained in healthcare and other fields have experienced 
earnings impacts of more than $3,100 per quarter seven years after 
enrollment and the impacts appear to be increasing during the economic 
recession and recovery.\27\
    <bullet> Research on programs that contextualize basic skills 
instruction to a specific occupation or set of occupations has yielded 
promising results. One of the best examples is Washington State's 
Integrated Basic Education and Skills Training (I-BEST) program, which 
blends adult education with occupational training and pairs adult 
education teachers with career and technical education instructors. A 
recent study found that IBEST participants are 56 percent more likely 
than regular adult education students to earn college credit, 26 
percent more likely to earn a certificate or degree, and 19 percent 
more likely to achieve learning gains on basic skills tests.\28\ 
Another study found that IBEST participants experience higher 
employment rates and earnings than nonparticipants three quarters after 
leaving the program.\29\
    A growing body of research suggests that workforce investments are 
likely to pay off for the next generation. Most evaluations have 
focused on a limited set of outcome measures, especially employment and 
earnings gains for individual participants. Yet, there is evidence that 
workforce investments may produce benefits both for adult participants 
and their children.\30\
    <bullet> As Katherine Magnuson has written, ``many workers, 
although certainly not all, are also parents, and human capital 
accumulation is an intergenerational process. Improving the educational 
and employment prospects for parents in the workforce today may also do 
the same for their children as they enter the workforce tomorrow.'' 
\31\ There is encouraging evidence that, when mothers with low 
education levels complete additional education, their children appear 
to have improved language and reading skills.\32\ These quasi-
experimental studies suggest that the effects of increased maternal 
education are apparent only for mothers with a high school education or 
less and are associated with a variety of education and training 
services, including high school completion and GED, occupational 
training and college.\33\

                                ENDNOTES

    \1\ Sheila Maguire, Joshua Freely, Carol Clymer and Maureen Conway, 
Job Training That Works: Findings from the Sectoral Employment Impact 
Study, P/PV In Brief (Public/Private Ventures), May 2009, http://
www.ppv.org/ppv/publications/assets/294--publication.pdf.
    \2\ Several quasi-experimental studies have shown this linkage. K. 
Magnuson, H. Sexton, P. Davis-Kean, and A. Huston, ``Increases in 
Maternal Education and Young Children's Language Skills,'' Merrill-
Palmer Quarterly, Vol. 55, No. 3, July 2009, http://muse.jhu.edu/
login?uri=/journals/merrill-palmer--quarterly/v055/55.3.magnuson.pdf 
and K. Magnuson, ``Maternal Education and Children's Academic 
Achievement During Middle Childhood,'' Developmental Psychology, Vol. 
43, No. 6, 2007, http://muse.jhu.edu/login?uri=/journals/
merrillpalmer--quarterly/v055/55.3.magnuson.pdf. In addition, 
Transitional Jobs programs, which combine time-limited subsidized 
employment with a comprehensive set of services including case 
management, have been found to significantly reduce recidivism among 
individuals who have left prison.
    \3\ Christopher T. King and Carolyn Heinrich, How Effective Are 
Workforce Development Programs? Prepared for the Symposium Celebrating 
the Ray Marshall Center's 40th Anniversary, 2010. http://
www.utexas.edu/research/cshr/pubs/pdf/Heinrich%20and%20King%20% 
20How%20Effective%20Are%20Workforce%20Development%20Programs.pdf.
    \4\ Multiple Employment and Training Programs, GAO, page 17.
    \5\ Testimony Of LaDonna Pavetti, Vice President, Family Income 
Support Policy Before The House Ways And Means Committee, Subcommittee 
On Human Resources, April 5, 2011.
    \6\ Marcie Foster, Julie Strawn and Amy Ellen Duke-Benfield, Beyond 
Basic Skills: State Strategies to Connect Low-Skilled Students to an 
Employer-Valued Postsecondary Education, CLASP, March 2011. http://
www.clasp.org/admin/site/publications/files/Beyond-Basic-Skills-March-
2011.pdf
    \7\ 2009-2010 Adult Student Waiting List Survey, National Council 
of State Directors of Adult Education.
    \8\ Are Federal Workforce Programs Duplicative?, National Skills 
Coalition, March 2011. http://www.nationalskillscoalition.org/homepage-
archive/documents/2011/nsc--programsduplicative--2011-03.pdf
    \9\ Utah Department of Workforce Services, Utah's Job Connection, 
WIA/Wagner Peyser State ARRA Plan, http://jobs.utah.gov/edo/stateplans/
wiawpstateplan.pdf. See also A. Rowland, Utah's Economy: The Future is 
Here. Voices for Utah's Children, January 2009, http://
www.workingpoorfamilies.org/pdfs/Utah--Assessment--Report.pdf.
    \10\ D. Wright and L. Montiel, Workforce System One-Stop Services 
for Public Assistance and Other Low-Income Populations: Lessons Learned 
in Select States, Rockefeller Institute, April 2010, prepared for the 
U.S. Department of Labor and released in 2011, http://www.rockinst.org/
pdf/workforce--welfare--and--social--services/2010-04DOL--Workforce--
System.pdf.
    \11\ N. Ridley and E. Ganzglass, Responding to the Recessions: How 
the Recovery Act Boosted Training and Innovation in Three States, 
CLASP, February 2011 http://www.clasp.org/admin/site/publications/
files/Respondingto-the-Great-Recession-ARRA-and-WIA-2011.pdf
    \12\ D. Pavetti, L. Schott, and E. Lower-Bash, Creating Subsidized 
Employment Opportunities For Low-Income Parents: The Legacy of the TANF 
Emergency Fund, CLASP and CBPP, February 2011, http://www.clasp.org/
admin/site/publications/files/Subsidized-Employment-Paper-Final.pdf.
    \13\ N. Patel et al, A Means to an End: Integration of Welfare and 
Workforce Development Systems, CLASP, October 2003, http://
www.clasp.org/admin/site/publications/files/0155.pdf and A. Werner and 
K. Lodewick, Serving TANF and Low-Income Populations through WIA One-
Stop Centers, U.S. Department of Health and Human Services, Office of 
the Assistant Secretary for Planning and Evaluation, January 2004, 
http://aspe.hhs.gov/hsp/WIA-centerssite-visits04/.
    \14\ WIA Reauthorization: Recommendations for Reauthorization of 
the Workforce Investment Act Adult Program, CLASP, July 2009, http://
www.clasp.org/admin/site/publications/files/WIA--Recs-for-Adult-
Program-final.pdf.
    \15\ Power point presentation on TANF Reauthorization 2003: Lessons 
from Block Grants, June 13, 2003, New York City.
    \16\ Reform or Dismantling? President's Workforce Proposal Raises 
Serious Concerns, CLASP, 2006. http://www.clasp.org/admin/site/
publications/files/0279.pdf.
    \17\ GAO Report to Congressional Requesters, ``Workforce Investment 
Act: Youth Provisions Promote New Service Strategies, but Additional 
Guidance Would Enhance Development'', April 2002, p. 29, http://
www.gao.gov/new.items/d02413.pdf.
    \18\ GAO, Workforce Investment Act: Labor Has Made Progress in 
Addressing Areas of Concern, but More Focus Needed on Understanding 
What Works and What Doesn't, 2009.
    \19\ From Neil Ridley and Elizabeth Kenefick, Research Shows 
Effectiveness of Workforce Programs: A Fresh Look at the Evidence, 
Center for Law and Social Policy, May 2011, http://www.clasp.org/admin/
site/publications/files/workforce-effectiveness.pdf.
    \20\ Kevin Hollenbeck, Daniel Schroeder, Christopher T. King and 
Wei-Jang Huang, Net Impact Estimates for Services Provided through the 
Workforce Investment Act, U.S. Department of Labor, Employment and 
Training Administration, October 2005, http://wdr.doleta.gov/research/
FullText--Documents/
Net%20Impact%20Estimates%20for%20Services%20Provided 
%20through%20the%20Workforce%20Investment%20Act-%20Final%20Report.pdf.
    \21\ Carolyn Heinrich, Peter Mueser and Kenneth Troske, Workforce 
Investment Act Non-Experimental Net Impact Evaluation, Final Report, 
IMPAQ International, December 2008, http://wdr.doleta.gov/research/
FullText--Documents/
Workforce%20Investment%20Act%20NonExperimental%20Net%20Impact%20Evaluati
on%20-%20Final%20Report.pdf.
    \22\ Russell H. Jackson, et. al., Youth Opportunity Grant 
Initiative: Impact and Synthesis Report, Decision Information 
Resources, Inc., prepared for U.S. Department of Labor, Employment and 
Training Administration, December 2007, http://wdr.doleta.gov/research/
FullText--Documents/YO Impact and Synthesis Report.pdf.
    \23\ Washington State Workforce Training and Education Coordinating 
Board, Results of the Net Impact Study of 12 Workforce Programs, April, 
2011. The study also shows that adults, youth and dislocated workers 
receiving WIA services have higher earnings than non-participants three 
years following participation. The short term results are for 
participants exiting in 2007-2008. The long term results are for 
participants exiting in 2005-06. The author of this study, Kevin 
Hollenbeck, has also conducted net impact studies for Virginia and 
Indiana.
    \24\ Whitney Smith, Jenny Wittner, Robin Spence and Andy Van 
Kleunen, Skills Training Works: Examining the Evidence, The Workforce 
Alliance (now the National Skills Coalition), September 2002, http://
www.nationalskillscoalition.org/assets/reports-/skills-training-
works.pdf.
    \25\ Sheila Maguire, Joshua Freely, Carol Clymer and Maureen 
Conway, Job Training That Works: Findings from the Sectoral Employment 
Impact Study, P/PV In Brief (Public/Private Ventures), May 2009, http:/
/www.ppv.org/ppv/publications/assets/294--publication.pdf.
    \26\ Maureen Conway, Sector Strategies in brief, Workforce 
Strategies Initiative, the Aspen Institute, November 2007, http://
www.aspenwsi.org/publications/07-014b.pdf.
    \27\ Tara Smith, Christopher T. King and Daniel G. Schroeder, Local 
Investments in Workforce Development: 2011 Evaluation Update, Austin: 
Ray Marshall Center, University of Texas, April 2011 (forthcoming); and 
Robert G. Glover and Christopher T. King, ``The Promise of Sectoral 
Approaches to Workforce Development: Towards More Effective, Active 
Labor Market Policies in the United States,'' in Charles J. Whalen, 
Ed., Human Resource Economics: Essays in Honor of Vernon M. Briggs, 
Jr., Kalamazoo, Michigan: The W. E. Upjohn Institute for Employment 
Research, 2010.
    \28\ Matthew Zeidenberg, Sung-Woo Cho and Davis Jenkins, Washington 
State's Integrated Basic Education and Skills Training Program (I-
BEST): New Evidence of Effectiveness, Community College Research 
Center, 2010. http://ccrc.tc.columbia.edu/Publication.asp?UID=805
    \29\ Washington State Workforce Training and Education Coordinating 
Board, Results of the Net Impact Study of 12 Workforce Programs, April, 
2011. The short term results are for participants exiting in 2007-2008.
    \30\ A number of experimental studies report that Transitional Jobs 
programs, which combine time-limited subsidized employment with a 
comprehensive set of services including case management, have been 
found to significantly reduce recidivism among individuals who have 
left prison.
    \31\ Katherine Magnuson, Investing in the Adult Workforce: An 
Opportunity to Improve Children's Life Chances, prepared for the Annie 
E. Casey Foundation Initiative on Investing in Workforce Development, 
March 2007, http://www.aecf.org/news/fes/dec2008/pdf/Magnuson.pdf.
    \32\ Several quasi-experimental studies have shown this linkage. K. 
Magnuson, H. Sexton, P. Davis-Kean, and A. Huston, ``Increases in 
Maternal Education and Young Children's Language Skills,'' Merrill-
Palmer Quarterly, Vol. 55, No. 3, July 2009, http://muse.jhu.edu/
login?uri=/journals/merrill-palmer--quarterly/v055/55.3.magnuson.pdf 
and K. Magnuson, ``Maternal Education and Children's Academic 
Achievement During Middle Childhood,'' Developmental Psychology, Vol. 
43, No. 6, 2007, http://muse.jhu.edu/login?uri=/journals/
merrillpalmer--quarterly/v055/55.3.magnuson.pdf.
    \33\ Various studies have found the linkage between increased 
maternal education and improved children's achievement only for mothers 
with low education levels and have shown that parents who completed 
additional education participated in a variety of programs. Additional 
research is needed to parse the effects of different types of education 
and training. Research to date has concentrated on the effects of 
maternal education for children at certain ages (during the first three 
years of life, between ages 4 and 6, between ages 6 and 10).
                                 ______
                                 
    Chairwoman Foxx. Mr. Royal, are you recognized for 5 
minutes.

 STATEMENT OF BERT ``VAN'' ROYAL, OWNER/BROKER, MAGNOLIA POINT 
               REALTY, K&V INVESTMENT GROUP, INC.

    Mr. Royal. Good morning Chairwoman Foxx, Ranking Member 
Hinojosa, and other distinguished members of the subcommittee. 
My name is Van Royal and I serve as the volunteer chairman of 
First Coast Workforce Development, Inc, known locally at 
WorkSource.
    We are the regional workforce board serving Jacksonville in 
northeast Florida. In my testimony today, I would like to 
address from a business perspective some of the inefficiencies 
in the current employment and training programs, as well as how 
we in Florida have worked to eliminate some of these issues.
    As a small business owner, I know firsthand the 
frustrations of trying to wind through programs and regulations 
that aren't only necessary to grow your business, but 
oftentimes to sustain the business you have. Most small 
businesses do not have HR directors; they barely have time to 
write an ad for the newspaper, much less analyze growth 
incentives, community block grants, brownfield initiatives, or 
available training programs. If a small business employs ten 
people, a change of two people represents a 20 percent increase 
in jobs.
    Many of the above-mentioned programs could help; but most 
important to the small business owner is a skilled and easily 
identifiable new employee. The various agencies--DOL, EPA, HUD, 
USDA, and I am sure there are more--all have economic 
incentives that address employment or have employment standards 
in their regulations. Even the best economic advisers have a 
difficult time guiding large employers through the maze of 
hiring and training incentives, so imagine the small businesses 
owner trying to do the same. It is no wonder that these 
employment incentives are often overlooked or ignored by small 
businesses that are just trying to survive.
    Selecting and training the right employee is critical to 
the process of small businesses. It is more important than 
large companies, due to the expense of replacement and the 
downtime expense of no one being in that slot, particularly if 
you as an owner have to fill that slot. That is why it is 
critical that not only the services of the workforce 
development system be easy to use, but the perception of the 
programs must be positive and reinforcing.
    The GAO report referenced here today describes a plethora 
of federal job training and employment programs. While all of 
them were likely created with the best of intentions, it is 
virtually impossible for businesses, particularly small 
businesses and job seekers, to know about and navigate the 
services of that many programs. We need a system that is simple 
to understand and easy to use.
    My home State of Florida has made some great progress in at 
least consolidating some of these programs of our local 
workforce boards. So what makes Florida different?
    We believe that with an integrated, flexible system, we can 
really make a difference. The State of Florida had the 
foresight to design a workforce development system that takes 
the best of what WIA had designed and builds an even more 
integrated system based on business involvement and local 
decisionmaking. By pulling together no less than seven 
federalemployment and training programs, and integrating them 
and the funding streams through their regional workforce 
boards, we have been able to shape our policies and training to 
meet our local business needs.
    Having the flexibility to meet these programs and funding 
streams together allows us to maximize services to businesses, 
as well as job seekers. We are able to leverage funds from 
multiple programs to customize service delivery. We cross-train 
staff in multiple programs and are able to cost-allocate 
salaries, et cetera, in a manner that creates great 
efficiencies.
    There is, however, a tremendous amount of administrative 
waste in the process of separately tracking each funding silo, 
reporting redundancies, eligibility data, et cetera. While we 
strive to make our services seamless to services and job 
seekers, these multiple programs that all support employment 
and training services make that seamlessness more difficult 
than it should be.
    A prime example of one of the difficulties is the State 
merit staff requirement for the delivery of Wagner-Peyser, 
veterans and trade adjustment assistance. This requirement 
eliminates our ability to cross-train staff supporting these 
programs. For instance, a veterans program staff member cannot 
assist the military member spouse if both are in need of job 
placement or training assistance.
    Although there is no direct federal statutory mandate in 
the Wagner-Peyser Act requiring State merit staff to deliver 
services, the U.S. DOL Secretary has denied Florida's waiver 
request from this regulation every year since 2007. This waiver 
has been granted to the States of Colorado, Massachusetts, and 
Michigan, but U.S. DOL has taken a position that no further 
exceptions will be approved. This is just one example of 
regulatory rules getting in the way of efficient service 
delivery. There are many, many more.
    Chairwoman Foxx, that concludes my remarks. However, in 
last 15 seconds, a personal note: What you do is the most 
important thing to businesses at this point in time. Growing 
our job force and working with them on employment is hugely 
important, as is this committee, and I give you great kudos for 
the work you do. I want to thank you for allowing me to speak.
    [The statement of Mr. Royal follows:]

         Prepared Statement of Van Royal, Chairman, WorkSource

    Chairwoman Foxx and other distinguished members of this 
Subcommittee: my name is Van Royal and I serve as the volunteer 
Chairman of First Coast Workforce Development, Inc., known locally as 
WorkSource. We are the Regional Workforce Board serving Jacksonville 
and Northeast Florida.
    In my testimony today, I would like to address, from a business 
perspective, some of the inefficiencies in the current employment and 
training programs as well as how we, in Florida, have worked to 
eliminate some of those issues.
    As a small business owner, I know first-hand the frustrations of 
trying to wind through programs and regulations that aren't only 
necessary to grow your business but often times to sustain the business 
you have. Most small businesses do not have HR directors, they barely 
have time to write an ad for the newspaper much less analyze growth 
incentives, community block grants, brownfield initiatives or available 
training programs. If a small business employs 10 people, a change of 2 
people represents a 20 % increase in jobs. Many of the above mentioned 
programs could help, but most important to the small business owner is 
a skilled and easily identifiable new employee. The various agencies, 
DOL, EPA, HUD, USDA and I am sure there are more, all have economic 
incentives that address employment or have employment standards in 
their regulations. Even the best economic advisors have a difficult 
time guiding large employers through the maze of hiring and training 
incentives so imagine the small business owner trying to do the same. 
It is no wonder that these ``employment incentives'' are overlooked or 
ignored by small businesses who are just trying to survive.
    Selecting and training the right employee is critical to the 
success of a small business. It is more important than a large 
company's due to the expense of replacement and the ``down time 
expense'' of no one being in that slot particularly if you as an owner 
have to fill that slot. That is why it is critical that not only the 
services of the workforce development system be easy to use but the 
perception of the programs must be positive and re-enforcing. The GAO 
report referenced here today describes a plethora of federal job 
training and employment programs. While all of them were likely created 
with the best of intentions, it is virtually impossible for businesses, 
particularly small businesses, and job seekers to know about and 
navigate the services of that many programs. We need a system that is 
simple to understand and easy to use. My home state of Florida has made 
some great progress in at least consolidating some of these programs 
under the umbrella of our local workforce boards.

What Makes Florida Different?
    We believe that, with an integrated, flexible system, we can really 
make a difference. The State of Florida had the foresight to design a 
workforce development system that takes the best of what WIA had 
designed and build an even more integrated system based on business 
involvement and local decision-making. By pulling together no less than 
seven federal employment and training programs (WIA, Wagner-Peyser, 
Welfare Transition, a portion of Unemployment Compensation, Trade 
Adjustment Act, Food Stamp Employment and Training, and Veterans funds) 
and integrating that funding through the regional workforce boards, we 
have been able to shape our policies and training to meet our local 
business needs.
    Having the flexibility to mix these programs and funding streams 
together allows us to maximize services to businesses as well as job 
seekers. We are able to leverage funds from multiple programs to 
customize service delivery. We cross-train staff in multiple programs 
and are able to cost allocate salaries, etc. in a manner that creates 
great efficiencies. There is, however, a tremendous amount of 
administrative waste in the process of separately tracking each funding 
silo, reporting redundancies, eligibility data entry, etc. While we 
strive to make our services seamless to businesses and job seekers, 
these multiple programs that all support employment and training 
services make that seamlessness more difficult than it should be.
    A prime example of one of the difficulties is the State merit staff 
requirement for the delivery of Wagner-Peyser, Veterans and Trade 
Adjustment Assistance. This requirement eliminates our ability to cross 
train staff supporting these programs. For instance, a Veterans program 
staff member cannot assist the military member's spouse if both are in 
need of job placement or training assistance. Though there is no direct 
federal statutory mandate in the Wagner-Peyser Act requiring State 
merit staff to deliver services, the USDOL Secretary has denied 
Florida's waiver requests from this regulation every year since 2007. 
This waiver has been granted to the states of Colorado, Massachusetts 
and Michigan but USDOL has taken a position that no further exceptions 
will be approved.
    Florida created its own version of a system that was ``customer-
focused.'' In Florida, we determined that the primary customer of our 
system was the business community that creates the jobs workers need. 
The WIA legislation mandated that local workforce boards include 
business as an active partner. It's imperative that we keep that part 
of the system intact. In fact, we would recommend, based on our 
experience, that local boards have a ``super majority'' of at least 65% 
of their board members comprised of private industry.
    With business in charge of our local system, we found ourselves 
changing our organizational culture--from an internal focus on process 
and procedures to an external focus on results. If you want a system 
that is truly market-driven, the market must have a voice. That strong, 
private-sector business voice is what set us on a new path of 
responsiveness to business needs. The business leadership of our board 
asked questions that don't typically get asked in many public sector 
led initiatives; questions, for example, about the return on investment 
of funds in particular projects and contracts. It didn't take long for 
us to shift our priorities and ask how we could operate differently to 
better use our funding and leverage resources from partners.
    Another point that Florida got right was encouraging partners to 
work together to provide seamless services to jobseekers. Bringing 
agencies together was good for the jobseeker, but it also helped us to 
eliminate duplication of services and achieve more by working together. 
One partner that we have found to be invaluable is economic 
development. By bringing our local ED organizations in as valued 
partners, we gain insight into targeted industries and can help shape 
the workforce our local economy demands.
    Under WIA, training is delivered in response to the local labor 
market needs. The legislation required that training resulted in an 
industry-recognized certification. In our local region, we invested in 
education to learn the language of economic development, and changed 
our training strategy to focus on helping companies and industries 
expand.
    The consumer of our training system is business--but to date, there 
is no funding and no performance measure that is tied to serving 
business. Currently, WIA funding is delivered in silos based on 
categories of workers (adult, dislocated, etc.) We need funding that is 
flexible and that allows us to react to our local labor market 
conditions.
    We've spent twelve years building partnerships, learning how to 
understand the market, and building the foundations to be competitive. 
We must continue to build on the things that WIA got right--a demand-
driven, flexible system that allowed us to become a meaningful player 
in growing the economy.
    Consolidation of the multitude of federally funded employment and 
training programs as part of the Reauthorization of WIA needs to expand 
that flexibility, eliminate meaningless silos and create a new formula 
for funding that recognizes 21st century workforce challenges of 
business retention and expansion.

Life Long Learning and Career Services
    After K-12 education, we must provide a flexible workforce system 
that engages workers at every stage of their career, offering entry 
points for skill advancement in the classroom or on the job. In order 
to be competitive in the global economy, we must create a culture of 
lifelong learning that rewards higher skills with economic advancement.
    The focus of a successful career development system, one that 
supports business growth and global competitiveness, is not job 
placement. Rather, it centers on the skill sets needed in the local 
labor market, and how workers can obtain those skills through 
education, training and job succession. WorkSource, Cornerstone (our 
regional economic development partnership), and our community college 
and training partners work together to strategically provide a wide 
variety of activities that are designed to recruit proficient workers, 
retain valuable workers and re-train workers with new skills.
    This philosophy is embodied in a career development methodology 
resulting in income growth. The Income Growth Strategy promotes wage 
progression through rapid attachment to the workforce, continual skill 
gains, and personal development activities. As a strategic framework, 
this approach builds upon a program design generally referred to as 
``post-employment:'' placement, retention, advancement and/or rapid re-
employment services. The foundation of this approach is that all 
employment and training services are delivered within the framework of 
the skills needs of the business community.
    The Income Growth Strategy involves designing a planned sequence of 
service interventions, which target the needs of the job seeker in the 
larger context of serving our business customer. The model embraces 
incremental income goals achieved through labor market advancement. In 
our model, job seekers are not necessarily terminated from career 
development services at job placement. Success is measured by the 
ongoing skill development and wage growth of the job seeker.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Traditionally, workforce system contact with the employer ends at 
placement or soon thereafter, not resuming until the next time 
placement services are needed. Under Income Growth, a business services 
strategy, represents activities, such as employed worker training, as 
value-added products for the employer, part of a comprehensive set of 
business services.
    Providing services to the worker is no longer limited to a physical 
one-stop location, but may be offered at the worksite, at a training 
center, or over the internet.
    Currently, performance standards drive the system toward an early 
termination approach. We must create strategies that allow workers to 
access a flexible system that offers skill attainment and comprehensive 
career development services. System performance should be measured, 
incrementally, as a worker progresses in income growth without 
terminating them from services.

What We Need Now for the New Economy
    Funding of the workforce system is still based on the concept of 
equity, rather than competitiveness. While we recognize that it's 
important to help everyone engage in meaningful work, a funding formula 
based primarily on unemployment and poverty rates doesn't address the 
needs of our businesses or our workforce. It doesn't help either of 
them compete in the global economy.
    When we compete against other cities for new industries and good 
jobs, we're not competing against the places that we were five or ten 
years ago. Today, our economic development partners are not just 
competing against typical regional rivals in Georgia, South Carolina or 
Alabama or even cities in other regions, we are facing increasing 
competition from countries such as Malaysia, India and China. With the 
advent of technology, companies can now locate their businesses where 
they find the best talent for any given aspect of their business. U.S. 
companies are establishing a global footprint in order to compete and 
to open new markets. Our workforce and education systems need to 
reflect the current reality of global competition.
    Where do we go from here?
    <bullet> We ask your support to improve the legislation in a manner 
that broadens, coordinates, and supports partnerships at a local 
delivery level. Local boards are responsible for the system-wide 
coordination of resources and services, but distinct program rules, 
coupled with the authority granted to state and federal partners, 
undermines seamless delivery to the public.
    <bullet> Local boards should have a ``super majority'' of at least 
65% of their board members comprised of private industry. The current 
requirement that the board chair should be appointed from the private 
sector is a critical factor in maintaining business involvement.
    <bullet> Performance standards must be re-visited and redesigned to 
give all programs common goals. In addition, we must create standards 
that reinforce and reward ongoing career development services and end 
short term episodic fixes. WorkSource supports performance standards 
that target income growth and skill attainment as outcomes for all 
programs. We believe these measurements should be calculated 
incrementally while the job seeker or worker is receiving services, not 
at termination. Also, we support the creation of performance standards 
that measure business involvement and satisfaction with the workforce 
system.
    <bullet> The workforce development pipeline begins in our K-12 
educational system. In addition to intervening with the most at-risk 
youth, career services must be provided to all young people. Incentives 
should be used to encourage regional workforce boards to work in 
partnership with their educational systems to create workforce learning 
environments (i.e. Career Academies) that reflect the skills needed in 
the local labor market, and provide industry recognized certifications 
and/or college credit for all high school graduates.
    <bullet> Programs and funding streams should be consolidated at the 
federal level to ensure real flexibility in providing effective 
services at the local level. Maintaining separate funding streams will 
continue to keep the focus on programmatic barriers and not on 
services.
    <bullet> We urge that funding formulas be based on building 
competitiveness, rather than an approach that only considers equity. A 
funding formula based primarily on unemployment and poverty rates won't 
lead to our workers obtaining the skills to compete in the global 
economy.
    Chairwoman Foxx, that concludes my remarks. I want to thank you 
again for this opportunity to testify before the Subcommittee on this 
critical issue. I welcome any questions that you may have.
                                 ______
                                 
    Chairwoman Foxx. I want to thank all of the witnesses for 
their comments. I am going to start the questioning off with 
Dr. Sherrill.
    You mentioned in your comments that very little evaluation 
has been done in terms of the effectiveness of the programs. 
Could you give us some advice on what types of evaluations you 
would recommend that the Departments undertake to ensure that 
the precious taxpayer dollars that we are spending are being 
spent well, and that we can determine that they are either 
being spent well or not?
    Mr. Sherrill. Yes. This can be a challenging area to 
evaluate programs. Impact studies can be very revealing about 
what the program achieved. It often can be expensive. In some 
cases, some of these programs are small, and so it may not be 
cost-effective. There are other kinds of studies as well.
    We issued a couple of reports in the last 2 years focusing 
explicitly on the Department of Labor's employment and 
training, ETA's research agenda, and made several 
recommendations in this area to improve that. One of the things 
that was telling is that in 2008, 34 of the research products 
disseminated by ETA were delayed by 2 to 5 years. So they have 
been doing numerous research studies but not disseminating 
them; so part of the issue was that they weren't available to 
be used, some of these, in a very timely manner.
    So we made several recommendations to the Department of 
Labor to better track, have tracking processes for these 
studies that they were doing, to get more external input in the 
studies, to provide more public transparency and 
accountability. And we have taken some steps to make progress 
in this area.
    Chairwoman Foxx. Thank you.
    Mr. Temple, you advocated in your comments more flexibility 
for the States in what they are doing. Could you give some 
suggestions of some red tape that ought to be eliminated?
    Mr. Temple. Thank you, Madam Chairwoman.
    I think probably the biggest hurdle that we have, as has 
been stated earlier, is just working through all of the red 
tape for approvals and reports that just take a lot of staff 
time and a lot of time at the local level for our board 
partners and anyone that they contract with.
    The administrative dollars that are represented in all of 
this paperwork and everything that is behind it could certainly 
be spent better serving our customers, job seekers, and 
employers.
    I truly believe that the States are the labs of innovation, 
and I would like to go back to this movement of money from the 
States to the Department of Labor for innovation fund and the 
President's proposed budget that would increase it from $125 
million to $300 million. So that is $325 million taken away 
from the flexibility that States have now to do such things, as 
I have said earlier, like the Texas Veterans Leadership 
Program, or our STEM academies or developing curricula for 
training that could be used statewide for renewable energy.
    I think there are a lot of things that we can do and, as 
Dr. Sherrill said, coming up with common measures. We have 
tried to do that in Texas, to the degree that we can.
    Chairwoman Foxx. Thank you very much.
    Mr. Royal, you said you want the programs to be more 
focused on the business community. Do you want to expand in the 
comments that you made, do you want to name other areas where 
there could be some improvements? I know your time was limited, 
so if you want to take a minute or two to expand on that.
    Mr. Royal. The unique thing right now is that in the State 
of Florida, we have been able to develop that ATM where people 
can do that one-stop. Coming to the counter, in the services we 
are able to do, it has been great. But behind the scenes, if 
Wachovia or any other bank, they would be in worse shape than 
they had, if they had to do through all of the silos that we 
have set up.
    From a business standpoint, it is the same way. Outside of 
the employee, from the employer standpoint, there are so many 
programs out there and the regulations that we are having to 
deal with, that a small, particularly a small business owner, 
is not capable of going through that red tape and saying this 
is going to help my new small-solar manufacturer. We just had 
one in Green Cove Springs come in, and we talk to them about 
grants and their face glazes over. These are the kinds of 
things that if we can work on trying to get that aspect of 
employment training, look at the HUD requirements actually for 
low-income placement. They are really difficult to work through 
from a small business perspective.
    Chairwoman Foxx. Thank you all very much.
    Mr. Hinojosa, I recognize you now for questions.
    Mr. Hinojosa. Thank you, Chairwoman Foxx.
    My first question is for Larry Temple, the Texas Workforce 
Commission. Mr. Temple, in Ms. Ganzglass' testimony, she points 
out that adult education services reach about 2.4 million 
students out of a pool of 93 million adults with low basic 
skills who may be eligible for and need these services to 
upgrade their skills. Those numbers are staggering to me.
    In my own area, I know that there is a need for literacy 
services, as there is throughout the State of Texas. How do you 
ensure in a consolidated system that individuals like those in 
need of adult education receive the services they need?
    Mr. Temple. That is a great question, and a great 
challenge. The adult education program in the State of Texas is 
not administered by the Workforce Commission. Currently, it is 
administered between kind of a combination between the Texas 
Education Agency and the Higher Ed. Coordinating Board through 
the community colleges. And the funding is woefully inadequate 
to cover the number of people.
    As chairman of the Literacy Council, Interagency Literacy 
Council, one of the things that we have been presented with is 
just the lack of knowledge of just exactly what is out there 
because there are a lot of programs that don't get federal 
funding or State funding; therefore, they don't report. So we 
really don't know what the gap is, but we certainly know there 
is a gap.
    We work very closely with and through our workforce board, 
and on our State board we have adult ed. represented, and 
particularly through the nonprofits and community organizations 
at the local level, and referrals and working with the 
community colleges, and even put some of our dollars through 
WIA and the TANF in helping to pay for such things as not only 
the GED classes but even the travel.
    Mr. Hinojosa. My time is getting away from us, and I have 
three or four more questions. Let me add to the list of folks 
who take care of adult education that you mentioned, including 
the community colleges, our public schools, our libraries. Many 
others are trying to do something about this huge problem. And 
we discovered it was three or four times bigger than we thought 
it was in 2008 when we went into our recession and we had so 
many people losing their jobs. And in training them for new 
jobs, we found out that many could not read or write. So we 
need your help. We need everybody's help to give adult 
education a high priority.
    I would like to go to my next question for Mr. Temple.
    Mr. Temple, when Texas consolidated the programs you 
discussed, can you tell me if State workers were laid off in 
that consolidation?
    Mr. Temple. The legislature provided some incentives. We 
have a rule of 80 for retirement. They were given an additional 
5 years toward the rule of 80. So many of them were able to 
retire. Within the agency, we did internal postings. And I am 
just going from memory. It was a long time ago. It was back in 
1995. But 94 or 95 percent either retired, went to work back 
within the agency, or went to work for the contractors. So just 
a very few people did not actually end up with a job in the 
system either through the contractor or through the local 
workforce board. A lot of these people actually work for the 
board or were retained. So during that RIF process, we held all 
of our hiring internal for those individuals.
    Mr. Hinojosa. My third question goes to Dr. Sherrill with 
GAO.
    Mr. Sherrill to be clear, GAO did not find any actual 
duplication in its analysis of federal job training programs? 
If I am mistaken, please give me some clarification.
    Mr. Sherrill. That is right. We found overlap at a high 
level, as I explained. And then we drilled down to focus more 
deeply on three of the larger programs, the TANF, the 
Employment Service, and the WIA Adults. And we found that they 
serve some of the same low-income population and some of the 
similar services.
    When we tried to get more data on the extent to which the 
same recipients might be receiving services from multiple 
programs, we weren't able to do that because of some data 
limitations. For example, Department of Labor told us that 
about 4\1/2\ percent of the WIA Adult people who had received 
training and exited the program were TANF recipients; but that 
is not all of the TANF recipients, because those are just the 
ones who self-reported, and they were not able to tell us and 
HHS were not able to tell us to what extent were those people 
also receiving TANF employment and training services.
    So, no, as we tried to go deeper and to find more out for 
those programs, we weren't able to get a sense of were the same 
people receiving the same services from more than one program.
    Mr. Hinojosa. Thank you.
    I yield back.
    Chairwoman Foxx. Thank you, Mr. Hinojosa.
    I now recognize Mr. Thompson for 5 minutes.
    Mr. Thompson. Madam Chair, thank you for calling this 
hearing. It is an incredibly important topic. America's 
competitiveness is based upon having a qualified and trained 
workforce. Having served on a workforce investment board for 
many years, I think WIA is one of the important tools there.
    Dr. Sherrill, within your written testimony you noted in 
fiscal year 2009 there were $18 billion in costs to the 
programs. Maybe it is in there and you can point me to it. In 
terms of program evaluation, one of the major returns on 
investment for me is what is the dollar value of annual earned 
income of individuals who went through the programs, achieved 
the outcome we are looking for, and returned to gainful 
employment. Is that data out there in terms of return on 
investment for 2009?
    Mr. Sherrill. There is data out there for some of the 
programs. For example, the WIA Adult and Dislocated Worker 
programs report out on certain measures. And so nationwide for 
2009, the WIA Adult and Dislocated Worker programs generally 
did not meet their performance goals across the country. For 
entering employment, getting people jobs, they fell for both 
adult and dislocated workers pretty far short of the goals.
    For employment retention, keeping people in jobs, they were 
closer, but still fell short.
    But for average earnings, they did meet their performance 
goals.
    And for the youth program, the WIA Youth program, the 
younger youth goals were met nationwide, but there was a more 
mixed picture with regard to the older youth goals. It is 
important to keep in mind that it was sort of a difficult 
economic environment at that time as well.
    Mr. Thompson. Sure. Absolutely.
    Given that, are there current performance indicators that 
the federal job training programs are required to--the ones 
that we have, are they enough to track the programs' 
effectiveness? And are there any additional indicators that 
Congress should explore to better gauge the programs' 
effectiveness?
    Mr. Sherrill. One of the recommendations we have made is 
that Labor, because Labor negotiates performance goals with the 
States on each of these measures, so one of the things that we 
have recommended is that Labor make adjustments for differences 
in economic conditions or demographic conditions to better 
reflect sort of the difficulty--level of difficulty that the 
States are facing. Labor hasn't really done that yet.
    Mr. Thompson. Thank you.
    Mr. Royal, thank you, or my sympathies for serving as the 
president on the Workforce Investment Board. No, thank you for 
doing that. It is a huge undertaking. It is so important to 
have employers, the business and industry, the employers 
involved in that process. My own experience has been that it 
has been a mix.
    Even currently as a Member of Congress, I work very closely 
with my workforce investment boards, and I just see some models 
do better than others in terms of engaging. Some boards have 
members of the boards who are very frustrated, and others who 
are very engaged.
    Given that, based on your experience, how can we improve 
the current set of performance standards to accurately measure 
business engagement and satisfaction with the workforce 
investment system?
    Mr. Royal. We have all kinds of measurements as a workforce 
board as to how we take care of employment. The reality is, and 
it boils down to, is if someone gets employed, then there is an 
employer out there who has a job.
    The biggest struggle we have now is while we work to train 
and educate the workforce, we have a difficult time in trying 
to help small businesses, for instance, through some of their 
programs which actually creates a job. Because no matter how 
well we train--and that is one of the frustrations we have had 
lately in the last couple of years, higher education has done a 
great job of training, but if you don't have a job to put them 
in, all of the best-trained employees around are not going to 
make a difference.
    When you look at the 2009 numbers, we could have trained 
200,000 people more, and you wouldn't have had one more 
placement, because the jobs just weren't there. So making it 
easier from a business standpoint is probably the most 
frustrating.
    Right now in the State of Florida, we have been able to put 
some silos together and really do a much better job of training 
employees. We have a good workforce. Making those readily 
accessible to employers, and if there are incentives to be 
given to employers, put them in such a way that small 
businesses--which you hear over and over again, 60 percent of 
the United States employment is small businesses--make it 
accessible to those people who have eight or ten, as opposed to 
you need an HR director, you have to go out and hire somebody 
to work your way through grant systems.
    And there are HUD programs out there, for instance, where 
you have to hire somebody who doesn't have a high school 
education or can't make more than $9, and you are trying to 
develop a business, and you are going, Really? By the time you 
run across a couple of those, as an employer you say, That's 
enough.
    So we as the workforce board, the private sector is really 
concentrated on that employer standard and feedback and how 
easy it was to place a job, how quickly were we able to get 
analysis. And those we are improving. But that has been a slow 
process.
    Getting them trained, there are a lot of programs and 
places to do that, and we have really worked to get that. But 
that feedback in the private sector, out in front of the 
counter from the employment sector has been, I think, the most 
difficult so far and the biggest challenge. Because there are 
dollars to be had; they just don't know how to get them.
    Mr. Thompson. Thank you.
    Chairwoman Foxx. Mr. Tierney, you are recognized for 5 
minutes.
    Mr. Tierney. Thank you, Madam Chair. I think some will note 
the irony that today's hearing on perceived ``duplication'' 
follows a full Committee hearing on the same subject.
    Dr. Sherrill, while there are programs in the employment 
training area you found areas of overlap, but you have not made 
findings of duplication; is that correct?
    Mr. Sherrill. That is correct, in the employment training 
area, we have not made findings of duplication.
    Mr. Tierney. It seems to me the example I used in the last 
hearing on that was the veterans programs where they seemed to 
overlap, they serve distinct populations, whether disabled 
veterans or homeless veterans, that have specific criteria that 
need to be served; is that a good example?
    Mr. Sherrill. That is a good example. I mean, we set out 
sort of stage setting at the high level, and in a few programs 
we went deeper. But we didn't look at veterans programs for 
this work, for example.
    Mr. Tierney. Now a lot of times the recommendations talk 
about efficiencies that were achieved or not achieved in the 
delivery, but the fact of the matter is, is it not, that the 
States under current law are oftentimes charged with the 
responsibility of delivering these programs. And you have made 
some recommendations to the Department of Labor and Health and 
Human Services on how they might collaborate and try to come up 
with incentives to get the States to implement those 
efficiencies.
    Mr. Sherrill. Right. The focus of our recommendation was 
basically there are a few areas where some of the States and 
localities have done more innovative things, but we don't know 
a lot about, so can these serve as models for other places? We 
need more information about the challenges, the strategies, and 
the results.
    And so we saw the federal agencies, Labor and HHS, as being 
able to play a key role there in collecting and disseminating 
more information about those kind of State efforts, and whether 
more incentives might be needed to encourage other States to do 
those sort of things or not.
    Mr. Tierney. Mr. Temple and Mr. Royal, can you tell me how 
the proposal under the initial continuing resolution that would 
cut $3 billion to this program would have enhanced your ability 
to perform your functions and work with local workforce boards?
    Mr. Temple. The original HR, we would have closed an 
estimated 47 percent of our local offices. Luckily, we had a 
couple of other programs in there, because of our 
consolidation, that we would have had a presence, although 
certainly diminished. But, save that consolidation, we would 
have really been in trouble.
    Mr. Tierney. Mr. Royal.
    Mr. Royal. Right at the time when we are starting to come 
out of this economic malaise that we have been in, when 
employers are looking for job seekers, employment, that is when 
we cut these out? That is the time I would think we should hang 
in there in order to make sure that we have got a qualified 
workforce, and identifiable, and that the process is an easy 
one. Don't quit now. This is when we are starting to ramp back 
up. That is the toughest time, you would think.
    Mr. Tierney. Let me ask you, Mr. Royal, you have done some 
good work, some creative things on the Board, and I think it is 
indicative--and a lot depends on who are the members on the 
board and what services your workforce investment people can 
find. You talked a little bit about an individual small 
business owner's inability to go through all of the programs 
and figure out what they qualify for. But, in fact, how our 
workforce investment board operates, and probably yours, that's 
what staff help out with. They find out the businesses, and 
they go through that work and make the necessary 
recommendations.
    Mr. Royal. We are starting to. Where the partnership really 
is starting to have some synergy is with the economic 
development aspect of Chambers and things like that.
    When a person becomes unemployed on Monday, and on Tuesday 
they walk in and we can take care of their benefits, we can get 
them into a new training, we can assess what their skills are. 
So and so just left, we can tell you what businesses are moving 
in. We can provide training. We can provide day care, we can 
provide transportation. We can do all of those things for them.
    The reality is, though, that while we take care of that 
aspect, again the question and those incentives that are out 
there for the employer in how to access them through SBA, for 
instance, SBA is one of those agencies that has started change, 
and it has made a difference. If all the agencies took a good 
look at that, I think it would make a huge difference.
    But, yes, in the workforce boards is where that needs to 
take place because we have a great private industry part of 
that. And as employers, we know what the product needs to look 
like, what we are looking for, and they have reacted very well. 
We couldn't be any happier with it.
    Chairwoman Foxx. I am going to ask a couple of second 
questions and give other members an opportunity to do that.
    Dr. Sherrill, listening to you and talking about evaluation 
performance standards and that kind of thing, is it fair to say 
that the focus on whatever evaluation is being done is more on 
inputs and not results?
    Mr. Sherrill. Well, I think it has been more of a mixed bag 
because the programs do have various outcome measures. And so 
we found that almost all of these programs do track a range of 
outcome measures such as entered employment and average 
earnings and job retention and things like that. We found, 
though, that few programs have had impact studies that really 
try to address to what extent these outcomes are due to the 
program itself versus other factors. Those are tougher to do. 
But some of the programs have had those kind of studies.
    The Department of Labor was mandated by statute to do a 
random assignment impact study of the WIA Adult Dislocated 
Worker programs, the gold standard study that kind of got 
delayed in getting a start. Part of the reason was they thought 
that WIA reauthorization might change the program in 
fundamental ways, and so now the study is underway but it won't 
be finished until 2015.
    Chairwoman Foxx. Mr. Royal, you mentioned that a lot of 
work is done in getting people ready for jobs, but there are no 
jobs. Who is making the decisions as to what jobs people are 
being prepared for? Is it the small businesses that are coming 
to you and saying, this is what we need? Or is it the workforce 
board deciding amongst itself what the jobs are that are out 
there? Where are you getting the information to set up your 
programs?
    Mr. Royal. The great thing about the WorkSource boards as 
they are set up in the local areas is that they are made up of 
a breadth of people in that, whether they be chamber 
representatives, small businesses, large businesses, large 
industries, higher education--and that input is probably one of 
the most important things that we do is help to guide where 
training--for instance in our area, the Port of Jacksonville is 
huge and our military is huge, so consequently having somebody 
from the military base and the port as it expands, and that on 
that board in training, whether it is logistics and that, makes 
an incredible difference.
    So I would tell you that the board has a very high input on 
where training should be, because these represent the health 
care industry, they represent a wide variety of employers. And 
there is a gauge as well as economic chairpeople for chambers 
of commerce, you can train for nurses, but if you are closing a 
hospital, why?
    That is why that private sector in the job growth industry 
of the chamber is so important to be a part of that and to talk 
with schools, to talk with--what does it take to put on a 
culinary arts program?
    We are expanding our tourism dollars in St. Augustine, how 
about a satellite office for FCCJ in St. Augustine? What effect 
will that have?
    Those are the kinds of things I think will make a big 
difference and it is very, very valuable so we certainly have a 
great degree of input in that.
    Chairwoman Foxx. Thank you very much. Mr. Hinojosa.
    Mr. Hinojosa. Thank you for giving us an opportunity to ask 
another round of questions. My question is to Mr. Royal and Mr. 
Temple.
    I would like to ask for your, I guess, advice. Looking at 
the book that talks about establishing these workforce boards--
and it doesn't give a number, it just simply says that there 
must be a majority representing the business community and that 
we also include these representatives of these listed in the 
book here.
    In talking to executive directors of boards in Texas, I 
have found that oftentimes those who represent business--and I 
want to make clear, I came from the world of business, 34 
years, and ran a company that had 300 employees, so I was 
pleased that we had an opportunity to answer the question that 
the chair asked, fill out some forms and say how many people we 
intended to hire or lay off in the next 6 months or even a 
year. And we gave that information to the executive director of 
our WIA board.
    But the important thing is many of the business community 
are not showing up for the meetings. That is what is being 
reported to me. And I was chairman of this committee, so I went 
from West Coast to East Coast and meetings here, congressional 
hearings, and that was common.
    And I see Mr. Royal sort of smiling. And being a 
businessman like I was, you will agree with me they have busy 
schedules and they don't show up for the boards. And unless you 
have a quorum of all of them, then oftentimes you can't get 
anything done.
    So tell me, please, if you think--what would be the ideal 
size and how do we help the executive directors get the job 
done, so that if they don't show up, that we can still get the 
job done without them?
    I am going to start with you, Mr. Temple.
    Mr. Temple. Yes, sir. I think the number, regardless of 
size, I think the biggest challenge that I see some of the 
executive directors and staff around--not just in Texas, around 
the nation, is making those meetings relevant to the employers 
and not wasting their time on who gets the janitorial RFP or 
not getting into the minutia of running it but being strategic.
    Chairwoman Foxx asked about who picks what to be trained. 
Our local workforce boards identify their targeted demand 
occupations. You have demand occupations which is a list as 
long as this room, but then they look at where the targeted 
demand occupations--where is their best return for the 
investment? And that is where those local board members, those 
businesspeople, have the input----
    Mr. Hinojosa. Mr. Temple, I am going to interrupt you. In 
this last recession, the ones who lost their jobs were 
Hispanics and blacks, big numbers that lost their jobs. Why? 
Because home construction and commercial construction went in 
the tank. Roads and repairs of roads and bridges stopped. All 
this to say that if you were to say that you are going to put 
the emphasis on the high-paying jobs, you are going to leave 
out a lot of people who are Americans and deserve to be given 
equal importance. So I have to disagree with you; that the way 
you answered the question would be leaving out many of those 
big percentages that lost the jobs.
    Mr. Temple. Actually, sir, those targeted demand 
occupations are defined by the local board in construction, in 
many of our boards is actually one of their demand occupations, 
and they spend money on the construction trades and developing 
infrastructure.
    Mr. Hinojosa. Okay, I misunderstood you. And I will ask Mr. 
Royal from Florida to tell me what are your impressions about 
the question I asked?
    Mr. Royal. I resemble that remark, because I came from that 
particular industry in construction. But to answer your 
question, it needs to be 51 percent or higher, as far as I am 
concerned; and the reason specifically, if we--and one of the 
things that we have done in our board is--I hate to use the 
term ``dummied'' it down, but we have made it, as Mr. Temple 
said, relevant to the business owner that our continued 
success, and not the immediate, they may not be employing 
somebody in 6 months, but you are going to be employing 
somebody in the next 20 years, that is your business plan. You 
have got to have a program in here, so you have to have an 
investment in it.
    And we have told each and every one of our private sector 
businessmen, when they come on the board, is that this is the 
time that is incredibly well spent, and it may not be 
particular to your industry right now, but sooner or later the 
growth of Jacksonville, how that tide rises all of our 
businesses, and if you don't get involved--and you hate to say 
it, because you have a bunch of bureaucrats--but the reality is 
that is it, and they are not out there with their feet on the 
ground. And so consequently we have had a couple of issues in 
our own State where we have had to have majorities of, I don't 
know, 65 or 75 percent votes because of certain requirements 
now by the State, and we have gotten them.
    And the reality is that, as you said, it has got to be 
relevant. And they have got to know that this is hugely 
important. And if we can make a difference--we now not only 
have one-stops, but we take those mobilely now. We take those 
out with a bank of 20 computers, and we go to libraries and 15 
sites a week or 16 sites----
    Mr. Hinojosa. Excuse me. My time has expired.
    Chairwoman Foxx. Thank you.
    Mr. Hinojosa. Thank you for giving our colleagues an 
opportunity to ask questions.
    Chairwoman Foxx. Thank you, Mr. Royal.
    I would now like to recognize Mr. Thompson.
    Mr. Thompson. Thank you, Madam Chair.
    Mr. Temple, has Texas done anything to bring their focus or 
make those programs on the six industries clusters that 
represent the most return for your investment?
    Mr. Temple. Yes, sir. We worked with the Governor's Office 
of Economic Development and work groups from local economic 
developments on identifying for the State where we saw the best 
return--advanced technology, manufacturing, aerospace, defense, 
biotech, life sciences, information and computer technology, 
petroleum refining, chemical products, and energy.
    That is not to say that every board area has possibly 
immediately that potential or those needs, but they may have 
logistics services that could support those.
    But, for instance, in Galveston, the tourism trade is big, 
so that board has identified in that area the tourism and 
retail as some of their primary. Some of the areas in Houston 
have--in the Houston board, there are 14 county boards, gulf 
coast--identified construction trades and putting some of their 
money into that.
    So that is where we are. And then we ask the boards to 
submit their local plans, how they are going to support that 
strategy, so that we are all working toward a common goal, but 
still given the autonomy at the local board for them to be able 
to actually address their particular needs.
    I would like to point out, under the WIA program, there is 
a--almost prohibited to be able to use these funds for 
incumbent workers. So if there isn't training, there may 
certainly be the ability to enhance jobs or provide for growth 
within a company that would allow them to possibly generate 
revenue to hire more people.
    And that is some of the flexibility that we had in mind; 
just kind of where the rubber meets the road, to be able to 
have a little more flexibility to work with incumbent workers 
for those businesses that are still in business. Maybe could 
enhance their workers' skills that may develop more income and 
more jobs and that sort of thing.
    Mr. Thompson. One of the strengths of the current system 
seems to make up the WIA board and bring that industry in 
perspective. I know my own WIA boards, a number of years I 
served on them, we had many of those same areas. We also had 
marginal housing, energy, health care, but it was--we were able 
to adjust to the employment market and the needs. And those 
really speak to critical mass in terms of needs.
    Is there sufficient flexibility in the program? A few years 
back, I know the ones within my web I will share the experience 
and add an individuals dislocated gull type--I don't remember 
if it was trade-related or what--lost their job and essentially 
they came to a web at that point. And specifically the 
subcommittee I served on was Education and Technology, and they 
were interested in pursuing training for gunsmithing, not on 
any of the demand lists. And the interesting part is they came 
in with a letter from an employer that said, if this gentleman 
gets training, and decent training, he is hired. I am 
surprised. It was a good paying job. But we couldn't work with 
him; we couldn't serve him at that point. Maybe things have 
changed since I left the web.
    Mr. Temple. A lot of that is flexibility as determined at 
the State level. Our boards do generally limit to what their 
demand occupation lists, but they also do have exceptions. And 
in this instance that certainly would be one.
    The one thing we are trying not to do as a State, and the 
boards are as well, is someone does have marketable skills and 
they would just like to be a gunsmith because that is something 
they would like to do, but we have identified that they do have 
transferable skills, then we are not probably going to invest 
WIA dollars in that individual because we have a lot of people 
who don't have transferable skills. So in that case there could 
be a problem in that respect. But someone may be living in 
Amarillo and wants to be an underwater welder because they are 
going to move to the coast, then that board could provide that 
training for them.
    Mr. Thompson. Mr. Royal, you as chairman of the local 
Workforce Investment Board, what are some of the issues that 
take up an inordinate amount of your board's time, your staff's 
time, that you deem too time-consuming or distracting from 
strategic planning, and how can this be improved at the federal 
level? Any suggestions?
    Mr. Royal. We spend an inordinate amount of time looking at 
particular individual RFPs, the requirements and that; not that 
they aren't certainly ones that are important, but that is the 
minutia that the staff can do if done well. The requirement now 
by some agencies and the State require particular votes in 
that.
    We need to be able to focus on not policy, but direction of 
the big ship. And I would like to think that if there are 
certain amounts of regulations that the staff is having to 
duplicate behind the scenes of--again, that ATM. If the ATM 
works and it does work, if there is any cost savings, 
Representative Hinojosa mentioned earlier that if we do it more 
efficiently, that is more money in the system.
    And that is exactly what it is all about is that some of 
this, it is not job cutting, it is not red tape cutting as much 
as it is how much more can we do if we had 20 percent more of 
our funds. And I think that is somewhat of the frustrating part 
of our board because we see some of that. We are invested in 
it. We watch it happen. And from time to time, even our 
executives have to bring it to us and show us that these are 
things that they are having to do. So a certain amount of the 
funding that we get goes to administration that probably 
didn't. But it is a hopeful group.
    And again, I reiterate one more time, there is nothing more 
important that we do than educating and training this workforce 
and getting it back employed. And this is what you all do, so 
thank you.
    Chairwoman Foxx. Thank you. Thank you, Mr. Royal. Mr. 
Tierney.
    Mr. Tierney. Thank you very much.
    Ms. Ganzglass, you indicated in your testimony that in 
2008, 2009, was it two-thirds of adults and three-quarters of 
dislocated workers who participated in training programs 
actually found jobs? Is that accurate?
    Ms. Ganzglass. I believe so. Those are Department of Labor 
numbers.
    Mr. Tierney. Okay. You have no reason to doubt them?
    Ms. Ganzglass. No.
    Mr. Tierney. You also indicated that the summer youth 
program that was implemented rapidly in 2009 ultimately reached 
more than 355,000 disadvantaged youth.
    Ms. Ganzglass. Correct. That includes summer youth 
employment program.
    Mr. Tierney. And 4.3 million found jobs, even in the 
difficult labor market?
    Ms. Ganzglass. Correct.
    Mr. Tierney. I think that is some indication of the 
outcomes that things are moving along and progressing. We 
have--I understand Mr. Royal's point if there are no jobs out 
there, it is difficult and that becomes part of the challenge. 
But as we get more jobs, the challenge I think is going to be 
marrying them up.
    So I was glad to hear about the diversity on the board both 
you and Mr. Temple have on that.
    Have either you or Mr. Temple had your boards utilize 
periodic surveys of your business community in terms of 
identifying what industries may be growing in your area or 
anticipated to grow?
    Mr. Temple. All the time. About every 6 months. That is one 
of the most important things that we do.
    And we share our labor market information data with the 
local boards, and those boards have planners that utilize that 
for them as well.
    Ms. Ganzglass. Could I add something just to the outcome 
discussion? It is interesting for the evaluation discussion as 
well as outcomes, that although the members are all interested 
in having the systems work better together, you are asking 
questions about the individual components. So from an 
evaluation point of view, it really is counterproductive at 
this point to look at one funding stream, because out in the 
field these programs really are working together.
    So you really have to look at the contribution of all of 
them working together, and we haven't had those kinds of 
evaluations. And at least we have argued that we really also 
need to move to outcome performance measurement system that 
recognizes that people who have very low basic skills or 
English language deficiencies may start in adult education and 
move to WIA when they have overcome some of those deficiencies.
    And so you really have to look at how the system together 
is achieving the desired goals. So we can't just look at one 
piece of it, because there really are multiple components.
    Mr. Tierney. I think you noted also in terms of 
measurement, there are some instances where somebody may have 
got the training and education services and it pays off not 
immediately, but in a later generation on that, their children 
actually doing better in school and graduating and better 
literacy and things of that nature.
    Ms. Ganzglass. We have seen that outcomes are delayed and 
the sector-based evaluations that we have been pointing to 
really didn't have the real outcomes for a couple of years. And 
the regular reporting systems are really much shorter term for 
convenience, so you have to look at the longer term as well.
    Mr. Tierney. Mr. Royal and Mr. Temple, do your programs use 
internships and apprenticeships to any great degree and, if so, 
have you found them to be valuable, or are there any problems 
with that?
    Mr. Royal. We did, and it didn't work. And the problem was 
that we took what we thought a unique plan, we thought it was 
great; we took federal dollars and said, we will put you into a 
short-term apprentice program in whatever industry that we find 
has the needs. And we put it out there and a lot of people 
signed up and said, I will be an apprentice, I will do anything 
in that, and the employers were afraid. The employers were 
afraid that for 6 months I am going to get used to having 
someone run around and I am not going to have time to train him 
in 6 months, and then the money is going to go away there. So 
there was a resistance. And I hate to say it, but that was a 
program that didn't work and we thought it was a good idea.
    Mr. Tierney. Mr. Temple, your experience?
    Mr. Temple. We have used it in the arena of the STEM 
academies, particularly for high school students and college 
students working with companies like Johnson Controls, and it 
has worked very well. But with recent Department of Labor 
interpretations of how you have to treat interns, there is no 
such thing almost as an unpaid internship anymore, and like 
that, so a lot of individuals are willing to come in and do 
these things. They are not producing a product. They are not 
making a widget that is being sold. But that has really been a 
chilling effect on the internship for a lot of companies.
    Mr. Tierney. Because they have to pay them?
    Mr. Temple. Well, they weren't paying them before. They 
were 30-day internships over-the-summer type deal. A lot of 
individuals have done that over the years, and a lot of 
companies do have paid internships as well. But I know that 
that has been something that we have heard. But we do work 
through our STEM academies, and they are paid internships and 
we have worked with them.
    Mr. Tierney. With the Chairwoman's indulgence, the reason I 
raise that question, in our area we found internships in the 
energy and energy efficiency areas useful to companies. They 
actually came looking for them. They found they weren't sure 
about bringing somebody in or not--but they brought them in for 
6 months, and most thought they were invaluable after that and 
managed to keep them on afterwards.
    Mr. Temple. We would probably call that an on-the-job 
training program which comes with a wage, a little different. 
Just our interpretation. But on OJT, a very successful program 
for us. A little too much red tape from the Department of Labor 
standpoint. We would like a little flexibility on that.
    Mr. Tierney. I hear that loud and clear. Then you get 
accountability versus flexibility on that. That is something 
you can always help us with on that. Thank you.
    Chairwoman Foxx. Thank you, Mr. Tierney.
    Dr. Bucshon.
    Mr. Bucshon. Good morning. I have a couple comments and a 
few questions. I find it continues to strike me, being new to 
Congress, the resistance that we have in Washington, D.C. of 
trying to downsize and consolidate programs to make everything 
more efficient. I just want to make that comment, it is very 
striking. And this is potentially another indication of that.
    A couple of questions, first of all, for Mr. Sherrill.
    What are some of the things Congress can do immediately in 
the short term, based on what we are seeing with some of these 
reports, to curtail the amount of duplication and waste that we 
have in federal job training programs?
    Mr. Sherrill. I think there is a least a couple of areas. 
One is to start with the administration's proposal for 
consolidating certain programs the administration has proposed 
for 2012, consolidating various vocational rehabilitation 
programs, nine programs into three; to consolidate some 
technical education programs. So that could be a starting point 
for consideration.
    A second possible avenue is that the GPRA Modernization Act 
was recently passed that really provides more of a vehicle 
where OMB has more of a role to help identify some priority 
areas to be a more cross-cutting focus on what are the outcomes 
that ought to be focused on. Employment training could possibly 
be one of them for focus. And the idea is to identify certain 
priority areas, to find out who are the major players in 
agencies, and to really pay attention to monitoring that area 
over time is another avenue for Congress as well.
    Mr. Bucshon. Thank you.
    Ms. Ganzglass, I am reading here that the GAO report 
reported that many of the programs did not have comprehensive 
evaluations. And it says that, but you argue that most of the 
programs are producing results. That is what I see here.
    So the question I have here is that without comprehensive 
evaluations, what are we basing our results on? And secondly, 
where it says most of the programs are producing results, I 
would like to know which ones are not?
    Ms. Ganzglass. I guess two responses to that. The first is 
we are talking about outcomes as opposed to impacts, so many of 
the--all of the programs have reporting systems. Some of them 
focus on outcomes. In the TANF program, for example, the report 
is not on the results; it is that people have participated for 
X number of hours in a set of allowable activities. So it is 
not an accountability system that is focused on outcomes. It is 
very much of a process measure. And the difference is that 
evaluations try to sort out whether, in fact, that program has 
made a difference, would it have happened anyway, or is it the 
sole contribution of that program to have the results? And so 
it is a different level. And we know from many evaluations that 
outcomes are not the same as impacts. So something that really 
looks good in the long run may not have had that kind of a 
value added, if you will. So that is the difference between 
outcomes and impacts.
    Which programs do not have reporting? I cannot tell you 
where, I don't know all of the outcome measures in all of the 
programs. The ones under WIA, under the Trade Act, under the 
Employment Service, under all of the major programs, adult 
education, Perkins, all of those, have solid systems for 
reporting results outcomes.
    Mr. Bucshon. I have a limited amount of time so what I am 
trying to get, then, is that we consider it a success if people 
participate in a program, but we don't get any results from it. 
See, I am a heart surgeon, so for me if you look at what the 
outcome is and what it does in the long run is what is 
important. You can participate as a patient in open-heart 
surgery, but if you don't survive the operation it doesn't 
really make a whole lot of difference.
    Ms. Ganzglass. I wholeheartedly agree with you, totally. We 
have argued that.
    Mr. Bucshon. I think it is great to have everybody 
participating in programs out there, and it makes us all feel 
great that we are spending our money on that. But the question 
is, which questions in my view give us results, bang for the 
taxpayers' dollar?
    Ms. Ganzglass. We totally agree. We have argued for many 
years that the TANF program should really shift from a process 
participation focus to an outcome focus, and that is still a 
work in progress. But we totally agree with you.
    Mr. Bucshon. Thank you. My time is expired.
    Chairwoman Foxx. Thank you, Dr. Bucshon, for giving us such 
a great analogy.
    I want to thank the witnesses again for taking the time to 
testify before the subcommittee today. Mr. Hinojosa, do you 
have any closing remarks?
    Mr. Hinojosa. I would like to say that I was here in 1998 
when we had the last reauthorization of WIA. And I wish that we 
had been able to find some way of compromising between both 
sides of the aisle and getting it reauthorized earlier, 
especially in 2008, 2009, when we were in that recession that 
cost us a lot of jobs.
    I would like to say that we are looking for ways in which 
we might be able to find grounds to compromise on both sides, 
and I look forward to being able to pick up the phone and call 
each one of you and discuss what your recommendations are; that 
we can do this because jobs is by far one of the most important 
issues that our country is facing. It isn't easy, as both the 
Republicans and the Democrats have found out, as we have been 
trying to create those jobs.
    So I want to thank each and every one of you for 
participating today. I hope that we can continue some type of 
communication with you as the experts in the WIA work that we 
are doing. I thank you for coming.
    Chairwoman Foxx. Thank you Mr. Hinojosa.
    Again, I want to thank you all for coming. It seems to me 
that what you have pointed out today is what many Americans 
understand; and that is, it is extraordinarily difficult to 
have effective programs operating at the local level when you 
have bureaucrats in Washington trying to run those programs and 
make the decisions for 50 States and lots of other folks.
    It seems to me that we would be so much better off in 
spending hardworking taxpayers' dollars if the federal 
government weren't taking those moneys to Washington and then 
dispensing some of them back to the States with the wisdom of 
Washington on how to spend them. I think we would be so much 
better off if that money were staying in the States, and the 
States could be making the decisions, and the localities could 
be making those decisions. That is where I would like to be, 
because it is just so difficult to make those changes, as other 
people have indicated. Once you get something set in stone, 
changing it--particularly demanding results--that seems to be 
the most difficult thing for people in Washington to be able to 
establish.
    I have been in education. I know how difficult it is to set 
up evaluations. But I also know it can be done. And I know we 
can determine whether we are getting any results for the money 
that we are spending. And we should be doing more of that. So 
thank you all very much again for coming.
    There being no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
